<html>
<title> - EXPERT VIEWS ON HURRICANE AND FLOOD PROTECTION AND WATER RESOURCES PLANNING FOR A REBUILT GULF COAST</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




  EXPERT VIEWS ON HURRICANE AND FLOOD PROTECTION AND WATER RESOURCES 
                   PLANNING FOR A REBUILT GULF COAST

=======================================================================

                                (109-36)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
25-916 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)




            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         JOHN T. SALAZAR, Colorado
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               BRIAN BAIRD, Washington
RICHARD H. BAKER, Louisiana          TIMOTHY H. BISHOP, New York
ROBERT W. NEY, Ohio                  BRIAN HIGGINS, New York
GARY G. MILLER, California           ALLYSON Y. SCHWARTZ, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  EARL BLUMENAUER, Oregon
BILL SHUSTER, Pennsylvania           ELLEN O. TAUSCHER, California
JOHN BOOZMAN, Arkansas               BILL PASCRELL, Jr., New Jersey
JIM GERLACH, Pennsylvania            RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                NICK J. RAHALL, II, West Virginia
TED POE, Texas                       ELEANOR HOLMES NORTON, District of 
CONNIE MACK, Florida                 Columbia
LUIS G. FORTUNO, Puerto Rico         JOHN BARROW, Georgia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Butler, Raymond, Executive Director, Gulf Intracoastal Canal 
  Association....................................................    37
 Coffee, Sidney, Executive Assistant to the Governor for Coastal 
  Activities, Baton Rouge, Louisiana.............................    11
 Dalrymple, Robert A., Ph.D., P.E., Willard and Lillian Hackerman 
  Professor of Civil Engineering, Johns Hopkins University, on 
  behalf of the American Society of Civil Engineers..............    37
 Dokka, Dr. Roy K., Fruehan Endowed Professor of Engineering, 
  Director, Louisiana Spatial Reference Center and Center for 
  Geoinformatics, Louisiana State University.....................    37
 Grumbles, Hon. Benjamin H., Assistant Administrator for Water, 
  Environmental Protection Agency................................    11
 Hoogland, Jan R., Director, Rijkswaterstaat, accompanied by Dale 
  Morris.........................................................    37
 Reed, Dr. Denise J., Professor, Department of Geology and 
  Geophysics, University of New Orleans..........................    37
 Strock, Lieutenant General Carl A., Chief of Engineers, U.S. 
  Army Corps of Engineers........................................    11
 Walker, William W., Executive Director, Mississippi Department 
  of Marine Resources............................................    11
 Woodley, Hon. John Paul, Jr., Assistant Secretary of the Army, 
  Civil Works, U.S. Army Corps of Engineers......................    11

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    76

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Butler, Raymond.................................................    54
 Coffee, Sidney..................................................    59
 Dalrymple, Robert A.............................................    77
 Dokka, Dr. Roy K................................................    87
 Grumbles, Hon. Benjamin H.......................................   100
 Hoogland, Jan R.................................................   119
 Reed, Dr. Denise J..............................................   133
 Strock, Lieutenant General Carl A...............................   142
 Walker, William W...............................................   146
 Woodley, Hon. John Paul, Jr.....................................   154

                        ADDITIONS TO THE RECORD

Rounsavall, Mark, Director, Rural Community Assistance Program of 
  the Community Resource Group, Inc., statement..................   163
Williams. S. Jeffress, U.S. Geological Survey, U.S. Department of 
  the Interior, statement........................................   170

 
  EXPERT VIEWS ON HURRICANE AND FLOOD PROTECTION AND WATER RESOURCES 
                   PLANNING FOR A REBUILT GULF COAST

                              ----------                              


                       Thursday, October 20, 2005

        House of Representatives, Committee on 
            Transportation and, Infrastructure, 
            Subcommittee on Water Resources and 
            Environment, Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, Hon. John J. Duncan 
[chairman of the committee] presiding.
    Mr. Duncan. I want to welcome everyone to the second 
hearing, and I think a very, very important hearing in the 
Water Resources and Environment Subcommittee on the response to 
Hurricane Katrina.
    On Tuesday, in a joint hearing with the Economic 
Development, Public Buildings and Emergency Management 
Subcommittee, we heard from Governor Blanco, Lieutenant 
Governor Landrieu and Mayor Nagin, as well as community and 
industry leaders, on their visions for rebuilding New Orleans. 
All of the witnesses eloquently expressed their strong desire 
to make New Orleans safe so its people will come back and its 
economy will revive.
    To achieve this, Mayor Nagin said providing category 5 
hurricane protection is one of his top priorities. However, 
both the Mayor and the Governor admitted that they do not yet 
have a rebuilding plan, and some neighborhoods may have to be 
relocated instead of rebuilt. In New Orleans and southern 
Louisiana, decisions about hurricane and flood protection 
cannot be made in isolation. These decisions must consider the 
need to protect people and property, maintain navigation, 
protect oil and gas infrastructure and sustain fisheries and 
wildlife habitat. Today's hearing focuses on these issues.
    On the first panel, we will hear from the Corps of 
Engineers, the EPA and representatives from the State of 
Louisiana and the State of Mississippi. On the second panel, we 
will hear from engineering, geology, marsh restoration and 
navigation experts.
    I hope these witnesses will be able to provide the 
Subcommittee with information on feasible options for providing 
hurricane protection for the Gulf Coast. This information will 
help guide the Committee's response to requests from the State 
of Louisiana and Mississippi and others for new authorizations.
    The State of Louisiana is asking Congress to direct the 
Corps of Engineers to build category 5 hurricane protection for 
New Orleans and the entire coast of Louisiana at a total cost 
of about $18 billion. It probably would run higher than that. 
And to build the State's coastal restoration plan at a total 
cost of $14 billion or even higher at full Federal expense and 
with no feasibility analysis.
    The State also is asking Congress to authorize and 
appropriate all of this funding right now, as an emergency 
expense, on top of the $62 billion of emergency Katrina 
response funding that has already been appropriated. In fact, 
as everyone knows, some people have talked about spending as 
much as $250 billion overall for the problems caused by 
Hurricane Katrina. I don't believe that the Congress can or 
will appropriate anywhere close to that much money in response 
to this disaster.
    This type of funding is just not going to happen, not 
because Congress does not want to help New Orleans and the 
State of Louisiana and the other areas affected, in fact, as I 
mentioned a couple of days ago, I think we saw the worst damage 
in the State of Mississippi. But I think this is not going to 
happen because it would be inconsistent with our responsibility 
to the taxpayers to ensure that these projects are in the 
Federal interest and technically feasible and economically 
justified.
    Right now, we don't have enough information to make all 
these determinations. We can work with the Corps and the State 
to streamline the process, but we cannot abandon our 
responsibilities by authorizing a black box and letting other 
people decide how taxpayer dollars should be spent.
    In fact, we do not even know why the Katrina storm surge 
breached the existing levees in New Orleans. I have also read 
articles that insurance companies have obligations anywhere 
from $20 billion to $100 billion and we need to make sure that 
they fulfill their obligations. Of course, they seem to be 
fudging as much as possible up to this point.
    If the reason why these levees were breached, turns out to 
be weak soil conditions; that will radically change how the 
Corps can design and engineer hurricane protection. Building 
higher levees may not be technically feasible. The only 
feasible option for providing New Orleans with category 5 
hurricane protection from storm surges coming from Lake 
Pontchartrain may be the barrier gates that Congress authorized 
in 1965. Construction of these gates was halted by various 
lawsuits through the 1960s and 1970s, about 20 years worth.
    A very rough estimate of the cost of building the barriers 
at the mouth of Lake Pontchartrain and raising some levees to 
provide category 5 protection for the city of New Orleans from 
storm surges is about $5.5 billion and probably higher. This 
investment is probably justified under traditional cost benefit 
analysis. If not, it is probably justified because New Orleans 
is below sea level, increasing the risk of flooding and the 
consequences of the citizens' failure to evacuate.
    I am not aware of any economic risk or consequence 
justification for providing category 5 hurricane protection 
along the entire coast of Louisiana. If there is a 
justification, we need to hear it and then apply the same 
standards nationwide. That is one of the considerations that we 
have to deal with because we are starting to get requests from 
all over the Nation because of the heightened levels of concern 
because of the Hurricanes Katrina and Rita.
    For example, the city of Sacramento, California has almost 
twice as many people as New Orleans. Yet it has less flood 
protection than any other city in America. Cities like Houston, 
St. Louis and Miami are also at risk. We cannot treat citizens 
of these cities differently unless we have a policy reason that 
we can explain and justify to our constituents.
    If Congress decides to build hurricane protection projects 
in Louisiana at full Federal expense with no justification and 
no feasibility studies, we must be prepared to do the same for 
thousands of miles of coastline across the Country, and that 
simply would not be possible. There is not enough money in the 
Federal Treasury to do everything that everyone wants us to do.
    I have similar concerns about the request for full 
authorization of funding of the State's Coast 2050 plan. That 
plan is a framework for directing further study, but it is not 
a building plan. Restoring the coastal Louisiana marsh lands is 
very important, but before spending billions of taxpayer 
dollars, we have to make sure that the projects will work.
    Geologists tell us that the Louisiana coastline is sinking. 
This may limit our ability to engineer a new coastline. We also 
need to make sure that adverse impacts on navigation and flood 
protection and oyster beds are held to a minimum. In addition, 
Congress may want to invest in marsh restoration in areas that 
will protect oil and gas infrastructure. Although this is used 
as a reason to justify spending on the Louisiana coastal 
restoration, the Corps plan and the State's plans were 
formulated as ecosystem restoration plans, not hurricane 
protection projects. We have no analysis that shows that the 
proposed projects will protect oil and gas infrastructure.
    Finally, we need to work with the State of Louisiana on 
appropriate cost sharing. We understand that the economy of New 
Orleans and southern Louisiana has been devastated. That may be 
a reason to defer cost sharing in the near term.
    Under current law, the Secretary of the Army may allow the 
non-Federal private sponsor to defer payment of the local cost 
sharing during project construction without accruing interest 
and may allow payment of the local share over a period of time 
up to 30 years with interest. Rather than waiving cost sharing, 
perhaps the Secretary of the Army should use this existing 
authority to ensure that Louisiana hurricane protection 
projects can proceed while the State's economy recovers, but 
without waiving all of the cost sharing rules and doing all of 
this work at total Federal expense.
    There are a lot more issues that I hope and I know we will 
discuss with the witnesses, both today and in our hearing next 
week. But let me now apologize for the length of that statement 
and turn to the Ranking Member, Ms. Johnson, who will give her 
opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman. Today's 
hearing is the second in a series of three hearings to examine 
the devastating effects of Hurricanes Katrina and Rita, how we 
might go about rebuilding and protecting the Gulf Coast 
communities and the Nation's hurricane damage and flood damage 
reduction programs.
    On Tuesday, we heard from Governor Blanco, Mayor Nagin and 
others on their vision to a rebuilt New Orleans. Obviously, our 
response will extend to the entire Gulf Coast. But the 
intensity of the human impact is so great in New Orleans that 
it serves as a good starting point for the examination.
    Today we will hear from Federal and other witnesses 
concerning how we might actually go about rebuilding and 
protecting New Orleans and the Gulf Coast. If Tuesday 
represented the what, then today begins the how. Rebuilding the 
Gulf Coast will require thoughtful solutions, not unlike the 
massive efforts to address flooding of the Mississippi River in 
the last century.
    However, we must be careful to avoid the mistakes and 
unintended consequences of that effort. For example, the very 
success of the flood protection project for the lower 
Mississippi valley continues to contribute to the loss of 
coastal wetlands that are crucial to protection from 
hurricanes.
    As we heard in Tuesday's hearing, our State and local 
partners must make decisions on how and where to rebuild. Then 
we must join together to determine how best to provide 
sufficient protection from hurricanes and floods, so that the 
devastation we witnessed does not occur again. We must ensure 
that we do not repeat the shortcomings that contributed to the 
devastation. If we build levees, they must hold. If we build 
barriers, they must respect the environment and not threaten 
our communities. We must be sure that the poor are not denied 
the opportunity to return to the coast and are afforded 
protection at least as great as the affluent.
    However, this effort is more than levees, flood walls, 
surge barriers, wetlands and barrier islands. It is about 
anticipating the needs of the communities. It is about making 
sure that the economic benefits of the rebuilding efforts 
accrue to local business interests. We must ensure that money 
spent in the coastal area stays in the coastal area and does 
not enhance the balance sheets of multi-national corporations.
    Contracting must be transparent and available to local 
firms. As Mayor Nagin stated, rebuilding economic activity is 
central to rebuilding the area. Rebuilding is also about 
ensuring that the workers who return to the area are afforded 
the opportunity to earn a fair wage for a fair day's work and 
that all labor protections are provided. How can we tell a 
worker who lost his home and everything he has or she has that 
they can't have a job or if they are hired, they can be paid 
less than prevailing wages?
    As we heard on Tuesday, the economy and therefore the 
people of the Gulf Coast can recover if given a hand up. It is 
our responsibility to provide that in a way that protects the 
people, the environment, the community and the culture that is 
an integral part of our one Nation.
    Mr. Chairman, addressing the societal and infrastructure 
shortcomings that were laid bare by Hurricanes Katrina and Rita 
will be a monumental task. It will cost several billions of 
dollars, take many years and is likely to cause permanent 
change in the lives and lifestyles of the Gulf Coast region. We 
need to do our best to make sure that all the changes in the 
Gulf Coast region are positive.
    I look forward to today's testimony and thank you again for 
calling the hearing.
    Mr. Duncan. Thank you very much, Ms. Johnson. Mr. 
Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I will just be very 
brief. I appreciate this hearing, the witnesses that you have 
called, your opening statement. What some of us are going to be 
looking for is understanding over the last literally maybe 250 
years, certainly over the last 100 years, that we have re-
engineered the ecological system of the mid-section of the 
United States and the Gulf of Mexico along coastal Louisiana, 
Mississippi, Alabama, Florida and Texas. We re-engineered 
sediment diversion, we have re-engineered marsh creation, we 
have re-engineered the barrier islands, shoreline protection, 
the hydrology, the vegetation. We have re-engineered that part 
of the world, totally re-engineered it.
    So what we are going to have to do with 2050 and the 
Louisiana coastal restoration projects and all the other myriad 
of things that need to be done is to understand what we did and 
then try to piece that thing back together in an extraordinary, 
in what we have just heard, an enormous task ahead of us, which 
is going to cost billions of dollars.
    I am not sure how many meteorologists, climatologists, 
hydrologists, wildlife biologists, wetland biologists, coastal 
barrier scientists were in on the first engineering project. 
But we sure need them on this engineering project, and we 
certainly know that the oil and gas industry needs to be 
protected, the people need to be protected. We don't want to 
give up the wildlife, the ecosystem, the magnificent place of 
this area of the United States. And there are some things we 
don't have any control over, so we have to factor that into the 
equation.
    Right now, basically we have no control over climate 
change. We have no control over plate tectonics. We have no 
control over sea level rise. So I hope those factors are 
statistically factored into the modeling of how much we can 
restore the Gulf of Mexico, the Louisiana coast, over the next 
50 years. And the Chairman mentioned the 2050 project. Along 
with that, we have CWPRA spending over the last decade or so, 
and then we have this LCA or LCR, whatever that is called on 
top of all of that. Then I understand that we can only save 
about 50 percent of the coastal area between now and 2050 with 
every effort at full throttle.
    So Mr. Chairman, I appreciate the call of this hearing. And 
we want to be helpful, this Committee wants to be helpful. But 
we want to make sure that the number of people that are 
participating in this project is enough, we have enough 
scientific expertise to get our hands around this 
comprehensive, complicated issue.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Gilchrest. Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    I appreciate, again, in your opening statement, the way 
that you expressed the challenge. I apologize in advance: I 
have been working for the last five years in the flood 
insurance issue and there is a concurrent hearing going on 
dealing with fine tuning of that. I will be shuttling back and 
forth. But I wanted to be here to express my appreciation for 
what you and the Ranking Member have been focusing on, this 
series of hearings. As Ranking Member Johnson pointed out, you 
also have to consider the human dimension as well as the 
practical, and I think that is very important.
    This is an issue that goes beyond the Gulf and recovery. We 
have been having these conversations with our friends in the 
Corps, on my part, for the last five or six years, and they are 
trying to look at the big picture. We have 70 percent of the 
American public that is at risk of one or more natural hazards, 
of which flooding is only the most common. But we have 
earthquakes, we have coastal erosion that is a national issue 
over the next 50 years. We are going to be seeing coastlines 
eroding.
    And I appreciate the focus here on how we look at the big 
picture, how we look at the cost, how we use existing resources 
in the Corps, how we use the rebuilding process to learn from 
it, make the community stronger, and energize them economically 
if it is done right. And it is important that we as a Committee 
don't duck the hard answers to the difficult questions that we 
are asking and exploring.
    This whole notion of cost effectiveness that was offered up 
with good intention actually may well have a perverse effect, 
because it really doesn't enable us to focus on the 
consequences of human loss of life and injury, and because of a 
narrow definition of cost effectiveness that invites local 
boosterism is natural.
    It has actually promoted projects that probably put more 
people at risk, that create more problems over the long haul 
and are really difficult to get our hands around. We need to 
revisit this--and I will only say once about the principles and 
guidelines that after 25 years need to be updated. But these 
are things that we should capture so we don't put the Corps in 
the cross-fire.
    I deeply appreciate all the previous members talking about 
the ecosystem and the big picture. Because if we don't get this 
right, we don't have enough money to buy concrete and to 
rebuild. We have to harness the forces of nature to solve the 
problems by the destructive forces of the nature that are 
visited upon us.
    I do think that this can be a national model with the 
leadership that we are seeing from this Committee. We can 
establish principles that will save lives, will save the 
environment and will save the Treasury money. I deeply 
appreciate the way that you are structuring this common sense, 
thoughtful approach. I just hope that we as a Committee are 
willing to bite the bullet on some of these controversial 
solutions that are going to come out so that we empower people 
to do their job right.
    Mr. Duncan. All right, thank you very much.
    Dr. Boustany.
    Mr. Boustany. Chairman Duncan, I want to thank you for 
convening this hearing today. As Vice Chair of the 
Subcommittee, I applaud your leadership in holding this whole 
series of hearings examining the devastation that was caused by 
Hurricanes Katrina and Rita.
    I think it is important as we go forward to look at the 
future implications for flood control, hurricane protection in 
the broad sense, just as my colleague just mentioned, looking 
at ecosystems and so forth.
    But I have to say, and I think all of us would agree, that 
the top priority in rebuilding the great City of New Orleans 
will be providing a safe environment in which businesses can 
grow and return. Critical to that is going to be providing 
safety, because if we don't do it, insurers will not return to 
this market, and we will see a completely failure economically. 
So protecting New Orleans from future flooding is really at the 
heart of the matter.
    I know the Corps is well underway in its work to repair the 
levee system and the damage, and you have done a magnificent 
job under very adverse conditions, and I applaud your efforts. 
But this is only going to take us back to pre-Katrina levels, 
so we need to look and make sure that we can rebuild New 
Orleans safely and a safe levee system to prepare for future 
category 5 storms.
    As the Subcommittee staff has recommended, and I have 
reviewed previous testimony going back to 1965, it has been 
pointed out that many options have been discussed for providing 
more extensive hurricane protection. All of these have 
consequences and tradeoffs, so we need to consider all of these 
very carefully. I personally believe we need to revisit the 
feasibility of the Lake Pontchartrain barrier plan that 
Congress initially authorized in 1965. We need to update this 
plan.
    As we move forward, I do want to work with the Chairman to 
ensure that the Corps develops a comprehensive, peer-reviewed 
levee plan with an expedited and specified time frame, not only 
for the plan, but for the implementation. I agree, time is of 
the essence in this. And I believe those should be our guiding 
principles.
    While much of the media post-Katrina was focused on the 
flooding in New Orleans, we cannot ignore the devastation 
inflicted upon the entire Gulf Coast. Hurricane Rita made 
landfall in my district. Cameron Parish was completely 
destroyed with massive flooding and hurricane force winds. 
Vermilion Parish, which is a parish that has extensive 
agricultural property--rice, sugar cane, cattle--had extensive 
flooding. Crops were destroyed by saltwater intrusion, homes 
were lifted from their foundations. We need to consider this 
area of the State as well.
    The storm surge from Hurricane Rita impacted regions as far 
as 40 miles inland. Scientists estimate that storm surge in a 
hurricane is reduced by one to three feet for every two miles 
of coastal wetlands. This needs to be considered as we move 
forward.
    Over 15,000 acres of Louisiana are lost each year to 
coastal erosion. United States Geological Survey estimates the 
State has lost about 1.22 million acres of coastal wetlands in 
the past 70 years, roughly the equivalent area to the State of 
Delaware.
    I have worked closely with the Chairman and members of this 
Committee and staff as we drafted the 2005 Water Resources 
Development Act to include funding for a number of vital 
restoration projects in coastal Louisiana. I appreciate the 
Subcommittee's support on all of this.
    I also want to say that much of this was focused in 
southeast Louisiana, and we can't neglect southwest Louisiana. 
Restoring Louisiana's coast is not just a public safety issue, 
it is not just a Louisiana issue, it is a key economic issue 
for all Americans. Eighty percent of our Nation's offshore oil 
and gas is produced off the Louisiana coast. Twenty-five 
percent of foreign and domestic oil used in this Country comes 
ashore through Louisiana ports.
    In the little town of Henry in Vermilion Parish is a 
natural gas facility that accounts for 49 percent of natural 
gas production in this Country, but it is out of commission. 
Still out of commission. If we don't get this up and running, 
we are going to see major spikes in natural gas prices.
    More than 25 percent of our seafood that is consumed in the 
U.S. comes through Louisiana.
    So I appreciate the Subcommittee holding this series of 
hearings. I appreciate Chairman Duncan's leadership on this. I 
look forward to working with the Chairman as we address a 
number of these issues, and I look forward to hearing all of 
your testimony. Thank you very much.
    Mr. Duncan. Thank you very much, Dr. Boustany. You have 
been a very active member of this Subcommittee, and I 
appreciate your work as Vice Chairman. As we have mentioned 
before, there is no bill in the history of the Congress that 
potentially does more with regard to hurricane and flood 
protection and ecosystem restoration than does the Water 
Resources and Development Act, the WRDA bill that we have 
passed once again in the House. And the Senate needs to move on 
that, if they really want to help out in a very specific way. 
Because we have many sections of the WRDA bill that deal with a 
lot of the things that Dr. Boustany just mentioned.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I want to thank you and Ranking Member Johnson for getting 
us together in this hearing today. Why do we need a national 
catastrophe to take care of parts of the infrastructure that 
Chairman Duncan has been talking about and many other people 
have been talking about for years? It is pretty mind-boggling. 
Why do we need a national catastrophe to expose the neglect of 
the poor and the neglect of our infrastructure?
    So Water Resources and the Environment Subcommittee has not 
been listened to. And I think we need to understand that, and 
will it be any different tomorrow? So it has been four years 
since 9/11. It has been three years since we created the 
Homeland Security Department. The utter lack of preparation and 
pathetic emergency response we saw with Katrina is wholly 
unacceptable.
    If I had the time, I would quote the words of Governor Bush 
of Florida yesterday who appeared before Homeland Security and 
what he thinks about the preparedness.
    In every step of this catastrophe, the Federal response has 
been consistently and utterly behind the curve. The opportunity 
to show what the Federal Government can do for preparation and 
immediate response has passed us by, and millions have suffered 
because of that failure. It is imperative that this Committee 
and the agencies on this panel help ensure that for long term 
response the Federal Government will properly assist in the 
rebuilding of the Gulf Coast.
    It is also imperative that this Committee continue to call 
attention to the larger issue of the need of infrastructure 
investments nationwide, not just in the Gulf. We can't control 
mother nature. Flood mitigation projects could have reduced the 
number of deaths and limited the economic devastation around 
the Gulf. That is either true or false, what I have just said. 
I want to repeat it, I want to emphasize it, because we are 
accessories to the crime. Flood mitigation projects could have 
reduced the number of deaths and limited the economic 
devastation around the Gulf.
    We can't be halfway on this. It is either right or wrong. I 
will stand corrected if you prove me wrong.
    Cutting the Army Corp's budget is the favorite pastime of 
the Office of Management and Budget under administrations that 
are both Democratic and Republican. It is a favorite pastime. 
Do you know what it is like? It is like what happens in towns 
all across America when it comes time to tighten your belt, 
particularly in boards of education or cities. The first thing 
they do is cut the library's budget. Then they cut the sports 
recreation budget. So it is like an automatic knee jerk.
    We are jerks, all right, for not understanding the 
significance of the Corps. And I tell you one thing, I don't 
think the Corps fought enough against those budget cuts. I was 
here, Duncan was here, Johnson--we were all here. A more robust 
highway and transit system could have done a better job, 
allowing movement of people out from the region and supplies 
into the region. In the coming months, we will need massive 
infrastructure investments to meet transportation and water 
resources needs, not only in New Orleans, but nationwide.
    God help us if we take the little that the poor have left 
in that area so that we prioritize and move to other resources, 
so we cut off our nose to spite our face. God help us if we do 
that in the next four or five days in this House. Why don't we 
start with Medicaid? We can find a lot of money in Medicaid, 
put some more money into the Army Corps of Engineers. On the 
street, there is a name for that kind of stuff.
    The question remains, will our priorities be affected by 
Katrina? Let us not only rebuild the Gulf, we are committed to 
that, we have heard enough commitments. But let's rebuild and 
upgrade the infrastructure throughout our Nation. As we know, 
devastation from natural or man-made disasters can happen any 
time. Our Nation's economic competitiveness and our citizens' 
quality of life depend on if we have learned our lesson and how 
we choose to respond.
    Thank you again, Chairman. I think that hopefully somebody 
in leadership will be listening to you this time.
    Mr. Duncan. Thank you very much, Mr. Pascrell. I always 
admire and respect your statements so much. With your 
experience as mayor of a major city, I think you understand 
some of these problems far better than most people in the 
Congress. I appreciate that.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Thanks for holding this 
hearing today and I appreciate very much this panel coming and 
giving us some insight on what is happening down in the Gulf 
Coast. I was down there a couple of weeks ago, I know it is a 
real challenge for not only that community, but for the whole 
United States.
    Having said that, I represent South Carolina, which is also 
a hurricane-prone region. My good friend from Louisiana just 
stated about being proactive, and trying to help, at least 
lessen some of the storm damage. I know that our big issue, I 
represent about 160 miles of the coast, is beach renourishment. 
I certainly would hope, Mr. Woodley, that you would not, and 
General Strock, would not give up on the fact that we really 
need to be proactive. Because it has been proven that those 
beaches that are renourished certainly have less damage when 
those storms coming. We can't prevent the storms from coming, 
but we can deal proactively in the process.
    So thank you all for coming, and I am certainly anxious to 
listen to you.
    Mr. Duncan. Thank you very much, Mr. Brown.
    Probably the most active member of this Committee in regard 
to Hurricane Katrina and all the damage and all the problems 
that have resulted is Chairman Shuster, who I think was the 
first member of our Committee to go to the scene, possibly 
along with Congressman LoBiondo. At any rate, Chairman Shuster 
co-chaired the hearing with me on Tuesday, and we are certainly 
pleased to have him here with us now. Chairman Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. And thank all of you 
for being here today. This is an important hearing for a number 
of reasons, to find out what happened. I don't think we have 
determined why yet, I have heard some theories that maybe a 
barge hit, and the General and I spoke about that a little bit, 
but at that point, we weren't sure what happened.
    As we move forward, what to do, do we build the levees back 
to withstand a category 3 or a category 5? The levees will 
stand, but will the houses that we are leaving there withstand 
a category 5? And questions about does it make sense to rebuild 
parts of the city, and we are going to rebuild, I am sure, the 
majority of New Orleans, but maybe there are sections that with 
your expert testimony here and moving forward, are there parts 
that maybe we shouldn't build. There are a lot of questions 
that I am looking forward to hearing the answers.
    Again, I want to thank all of you for being here today and 
I look forward to hearing your testimony. Thank you.
    Mr. Duncan. Thank you very much.
    The first panel is a very distinguished panel, consisting 
of the Honorable John Paul Woodley, Jr., Assistant Secretary of 
the Army for Civil Works of the U.S. Army Corps of Engineers, 
who has been with us on several occasions. Also, in fact the 
first three witnesses, General Strock and Administrator 
Grumbles has been with us several times, too.
    The second witness will be Lieutenant General Carl A. 
Strock, the Chief of Engineers of the U.S. Army Corps of 
Engineers. The third witness will be the Honorable Benjamin H. 
Grumbles, Assistant Administrator for Water of the 
Environmental Protection Agency. Then we have Ms. Sidney 
Coffee, the Executive Assistant to the Governor for Coastal 
Activities, from Baton Rouge. And finally, Dr. William W. 
Walker, who is the Executive Director of the Mississippi 
Department of Marine Resources, from Biloxi, Mississippi.
    Thank you very much for being with us, and Secretary 
Woodley, you may begin your testimony. All full statements will 
be placed in the record. You are allowed to summarize and then 
we will get to the questions.

 TESTIMONY OF THE HONORABLE JOHN PAUL WOODLEY, JR., ASSISTANT 
    SECRETARY OF THE ARMY, CIVIL WORKS, U.S. ARMY CORPS OF 
    ENGINEERS; LIEUTENANT GENERAL CARL A. STROCK, CHIEF OF 
ENGINEERS, U.S. ARMY CORPS OF ENGINEERS; HONORABLE BENJAMIN H. 
  GRUMBLES, ASSISTANT ADMINISTRATOR FOR WATER, ENVIRONMENTAL 
 PROTECTION AGENCY; SIDNEY COFFEE, EXECUTIVE ASSISTANT TO THE 
   GOVERNOR FOR COASTAL ACTIVITIES, BATON ROUGE, LOUISIANA; 
 WILLIAM W. WALKER, EXECUTIVE DIRECTOR, MISSISSIPPI DEPARTMENT 
                      OF MARINE RESOURCES

    Mr. Woodley. Thank you, Mr. Chairman. I will be brief.
    I am John Paul Woodley, Jr., Assistant Secretary of the 
Army for Civil Works. I am delighted to be here with the 
Committee again today, along with Lieutenant General Carl 
Strock, my colleague, the 51st Chief of Engineers.
    The thorough analysis and much thoughtful consideration of 
alternatives and careful attention as to how best to integrate 
future protection objectives with one another and with the 
coastal wetlands ecosystem will guide future consideration and 
decision making in reconstruction of the Louisiana and 
Mississippi Gulf Coast. The President has pledged the support 
of the Corps of Engineers to work with the State, city and 
parish officials to make the flood damage reduction system 
better and these local officials will have a large part to play 
in the engineering decisions to come.
    Our first and most urgent need is to assess the performance 
of the hurricane projects in place at the time of the Katrina 
and Rita storm events. We will use these findings to ensure 
that restoration plans for existing hurricane protection 
features are technically sound, will have efficacy and can be 
accomplished in a way that is environmentally acceptable.
    Information developed by the forensic analysis and from 
performance assessments must be available in time to be 
integrated into the design, engineering and reconstruction of 
existing hurricane and flood protection features for New 
Orleans that are to be completed before the beginning of the 
next year's hurricane season. In this regard, the Corps is 
already very hard at work, having established an interagency 
performance evaluation task force to collect and assess 
information.
    In addition, the Secretary of Defense has directed the 
Secretary of the Army to convene an independent, multi-
disciplinary panel of acknowledged national and international 
experts from the public and private sectors and academia under 
the auspices of the National Academies of Science and the 
National Academy of Engineering, to evaluate the information 
collected and assess the performance of the hurricane 
protection systems in New Orleans and surrounding areas. The 
National Academies will report directly to me, and their study 
is expected to take approximately eight months to complete.
    All reports, Mr. Chairman, generated by these panels, will 
be made available to this body and to the public, of course.
    While the forensic analysis may recommend ways to improve 
the performance of the hurricane protection system at the 
currently authorized level of protection, more analysis and a 
broader range of considerations are required to determine the 
most efficient, effective and practical ways to increase the 
level of protection for this urban area. The President has 
pledged that Federal funds will cover a large measure of the 
costs of repairing public infrastructure in the disaster zones, 
from roads and bridges to schools and water systems. Certainly 
if called upon, the Corps of Engineers and the Army as a whole 
is ready to execute a broad array of engineering construction 
and contract management services.
    We are especially mindful that the coastal wetlands 
ecosystem can provide a buffer against the impact of some 
storms. The coastal wetlands are the literal, figurative and 
conceptual foundation upon which future potential hurricane, 
flood protection and other development infrastructure must be 
integrated. The Administration is working with Congress and the 
State of Louisiana to develop appropriate generic 
authorizations for the Louisiana coastal area ecosystem 
protection and restoration program. They will expedite the 
approval process for projects and their implementation while 
providing greater flexibility in setting future priorities and 
increased opportunities for application of adaptive management 
decision making.
    Such an integrated, programmatic approach to coastal 
wetlands protection and restoration is essential for efficiency 
and efficacy. The same approach should be considered in a 
process that allows for a holistic solution to challenges 
presented in New Orleans and coastal Louisiana.
    Thank you, Mr. Chairman. That concludes my statement.
    Mr. Duncan. Thank you very much, Secretary Woodley.
    General Strock.
    General Strock. Mr. Chairman and members of the Committee, 
I am Lieutenant General Carl Strock. I am the Chief of 
Engineers and Commander of the U.S. Army Corps of Engineers.
    I am honored to appear before the Committee today to 
testify on the potential role of the Corps of Engineers in the 
rebuilding of New Orleans. The people and the infrastructure of 
the Gulf Coast have suffered a catastrophe, and we also 
recognize that the national economy has been dramatically 
affected by this disaster. We and the rest of the Federal 
family are absolutely committed to doing everything we can to 
provide the needed assistance in setting the conditions for a 
full and rapid recovery.
    We are continuing to execute our missions under the Federal 
Emergency Management Agency. New Orleans is essentially dry. We 
are working hard to provide interim protection for the 
remainder of the system and our goal is to restore to pre-
Katrina levels of protection by the beginning of the next 
hurricane system next June. Navigation has largely been 
restored across the entire Gulf Coast to its pre-storm 
condition with great assistance from the U.S. Coast Guard, 
NOAA, State and industry partners.
    We are currently mapping damage and collecting data for 
analysis of the performance of the system. We are doing this 
with our own engineering research and development center, with 
the National Science Foundation, with the American Society for 
Civil Engineers, and with an independent study by Louisiana 
State University. This analysis is to ensure that restoration 
is accomplished in the most technically sound, the most 
environmentally sustainable and the most economic manner.
    In addition, at the direction of the Secretary of Defense, 
the Secretary of the Army has requested the National Academies 
to conduct a forensic analysis. This will include an 
independent peer review of the analysis performed by the Corps 
of Engineers and others. The purpose is to assess the 
performance of the system during the storm, to evaluate its 
performance and recovery from the storm, to identify any 
weaknesses in the system and then to recommend improvements. We 
expect this study should take about eight months to complete.
    In his address to the Nation last month, the President 
committed to helping the citizens of the Gulf Coast rebuild 
their communities. The Corps is prepared to assist in that in 
many ways. We are replacing hundreds of public buildings in 
Mississippi, police and fire departments, city halls and other 
governmental buildings.
    Yesterday I was in De Lisle, where I visited a middle and 
high school that had just opened after 15 days of effort by a 
Corps of Engineers team. Twelve hundred students are back at 
their desks now. This is critical, because it allows families 
to come home and it allows the children to continue their 
education, and it allows their parents the opportunity to focus 
on rebuilding their lives and livelihoods without worrying 
about their childrens' welfare.
    The President also committed to rebuilding communities 
better and stronger than before the storm. Certainly local and 
State officials will have the lead in planning that effort. But 
the Corps will work with them to provide better and stronger 
flood and storm damage reduction systems to support their 
efforts.
    The design of a stronger hurricane and flood protection 
system for New Orleans is an extremely complex task. We 
completed a reconnaissance study in 2002 and concluded there is 
a Federal interest in increased protection.
    A feasibility study would normally now be necessary to 
consider the full suite of alternatives. We would anticipate 
this study would cost approximately $12 million, would normally 
be cost shared with a local sponsor, 50-50. We would obviously 
expedite the study. Even with expediting, we think this study 
may take from two to three years to complete, depending on 
negotiation of the cost sharing agreement and availability of 
Federal and non-Federal funding.
    So I would like to close by echoing Mr. Woodley's comments 
and those of many of the panel members on the importance of 
coastal wetlands to hurricane protection. As we evaluate and 
possibly implement structural changes to the hurricane 
protection system in the New Orleans area, we must not lose 
sight of the important role that barrier islands and wetlands 
play in the Louisiana coastal area. While there is adequate 
justification for coastal wetlands restoration for a host of 
reasons, it is certain that these features will continue to 
provide a critical, natural component of the storm damage 
reduction system.
    Again, I appreciate the opportunity to appear before the 
Committee. I want to assure you that we will remain focused on 
this important regional and national effort. Thank you, sir.
    Mr. Duncan. Thank you very much, General Strock.
    Administrator Grumbles.
    Mr. Grumbles. Thank you, Mr. Chairman. It is my pleasure to 
appear before the Committee.
    I know first-hand the passion and sincerity of the members 
of the Committee when it comes to the importance of investing 
in and sustaining the Nation's infrastructure. I am here on 
behalf of the U.S. EPA to talk about our role and 
responsibilities in the aftermath, as well as what we have done 
throughout since the hurricanes hit, and to focus on the water 
resources planning in a rebuilt Gulf Coast.
    Mr. Chairman, the bottom line from an EPA perspective on 
this subject is that we must learn from and not lose sight of 
the importance of sustainability, sustainable infrastructure 
and also the importance of wetlands barriers and buffers. So 
that is the primary message from an EPA perspective, as we work 
with our partners at the State level and the local level and 
our partners at the Federal level, particularly the Army Corps 
of Engineers is to focus on and take advantage of this unique 
moment in history like never before to focus on sustainability, 
sustainable infrastructure, both man-made and natural 
infrastructure, the green infrastructure.
    U.S. EPA was involved days before Hurricane Katrina 
actually hit land. There was pre-deployment and a coordinated 
effort with our colleagues, FEMA and other agencies, Federal, 
State and local. Mr. Chairman, the focus throughout this whole 
effort has been to approach this from a perspective of 
compassion, coordination and common sense. Compassion focused 
primarily on the emergency rescue at the initial stages of 
response. As we move into the recovery stage and the long term 
recovery stage, that is also where it really requires a great 
deal of common sense and coordination.
    I would just say that EPA has various responsibilities 
under the Stafford Act, and in coordination with the Army Corps 
clearly, Army Corps is in the lead when it comes to ESF-#3, the 
Public Works and Engineering. We coordinate as well with FEMA 
on the ESF-#14, which is really the long term community 
recovery. But our particular lead area of focus is on hazardous 
materials response and spills, ESF-#10. The EPA has been 
extremely involved in monitoring the quality of floodwaters, 
monitoring the impacts on aquatic ecosystems, such as Lake 
Pontchartrain, coordinating with the Army Corps, with our State 
partners, not just in Louisiana but certainly Mississippi, 
Louisiana and Texas, to measure the impacts of these natural 
catastrophic events.
    We have also been working with NOAA and other organizations 
at the State and local and Federal level, USGS, on monitoring 
fish tissue impacts, to measure the contaminants, status and 
trends of contaminants after these hurricanes.
    Mr. Chairman, I would like to say that when it comes to 
drinking water and water infrastructure, one of the most 
important steps is to get an accurate and fair assessment of 
the damage. We know that when Hurricane Katrina hit, for 
instance, that there were over 700 facilities, drinking water 
facilities, that were impacted, many of them rendered 
completely inoperative. There were over 200, approximately 218 
wastewater treatment facilities, including 6 from the State of 
Texas, that were rendered inoperable after Hurricane Rita as 
well as Katrina.
    Though a lot of progress has been made over the last 
several weeks, it will take time, it will take money and it 
will take coordination. But a key aspect is to get an accurate 
assessment and then to get in touch with the right people, to 
make sure that the energy is brought in to get the pumps 
operating again, that the necessary chemicals, chlorine and 
other are available, and that the technical know-how is 
available to get systems online and operational.
    In New Orleans, in particular, for me November 15th is an 
extremely important date. That is the date that the East Bank 
Sewage Treatment Plant is expected to reach secondary 
treatment. On October 16th, they became operational with 
primary treatment. Secondary treatment under the Clean Water 
Act is required, and November 15th is the day for that. We are 
committed to providing every resource we can to help them meet 
that date.
    The other thing I would like to touch on, Mr. Chairman, is 
the critically important component of wetlands buffers and 
barriers. Every member that I have heard from in this hearing 
and every witness so far has emphasized the importance of 
restoring those natural infrastructure components, restoring 
and protecting the wetlands. EPA is very proud of the efforts 
we played with the Army Corps and with other agencies in 
implementation of the Breaux Act, the Coastal Wetlands 
Protection Restoration Act. That is a very important authority 
to provide funding for projects to protect wetlands.
    There is also the important component of barrier island 
restoration. I look forward to working in full partnership with 
the Army Corps to continue to advance this notion of beneficial 
use of dredged material. I think this is a great opportunity to 
really emphasize that point.
    Last point, Mr. Chairman, is just simply the importance of 
working together to focus on ecosystem restoration as well as 
sustainable development. I know I am out of time, I just wanted 
to mention two things. One is a report that was done by CDC and 
U.S. EPA in the weeks after Hurricane Katrina hit. That report 
is available on our web site. It is an environmental health and 
habitability needs assessment. Its purpose was to lay out, with 
experts involved in the process, to layout 13 key environmental 
areas that should be looked at and be used as a blueprint to 
ensure that as people reoccupy New Orleans that the area is 
habitable. That is an important guideline for decisions, I 
think, and can be useful for local as well as Federal agencies.
    The last point is that EPA and NOAA entered into a 
memorandum of agreement a year ago on smart growth, smart and 
sustainable development in coastal areas. We are committed to 
working with NOAA to follow through on that, not through 
regulation at the Federal top-down level, Mr. Chairman, but 
through providing technical assistance and resources to help in 
the local and State planning effort to avoid putting people in 
harm's way.
    Thank you very much. I would be happy to answer questions 
at the end of the panel.
    Mr. Duncan. Thank you, Administrator Grumbles.
    Ms. Coffee.
    Ms. Coffee. Thank you, Mr. Chairman and members of the 
Committee, for allowing me to speak to you today. I serve as 
Executive Assistant to Governor Blanco for Coastal Activities.
    Mr. Chairman, I would like to thank you for your interest 
in the New Orleans situation and surrounding region. I want 
each member of this Committee to know that the people of 
Louisiana understand that recovery and future prosperity will 
take great tenacity and perseverance on our part. That said, 
all of us also realize the size of this catastrophe cannot be 
done, we can't go it alone. We are going to need assistance 
from our friends, our neighbors and our Government.
    Along with this assistance comes obligation. We want to 
steward those generous resources as efficiently and effectively 
as possible and want to assure you that the State of Louisiana 
is committed to spending every dollar properly and to making 
the most of every dollar.
    After years of predicting the scenario that would happen if 
the big one ever hit New Orleans, we find ourselves in the 
aftermath not only of Katrina but also of Rita in what is now a 
tragedy of such magnitude that its economic and social ripples 
will continue to impact the fabric of this Nation for many 
years to come.
    We have known for decades that the dramatic land loss 
occurring in south Louisiana continues to directly impact the 
safety and sustainability of this region. We sounded the alarm 
repeatedly that the loss of Louisiana's coast, what is now 
recognized as America's wetland, is indeed an emergency and its 
restoration merits immediate attention, not just because of the 
inherent safety it provides our communities, but because it 
protects the Nation's number one port system, it safeguards our 
critical energy infrastructure, and it is home to a third of 
the fisheries in the lower 48 States, just to name three 
reasons.
    This is an overwhelming challenge, but we know for certain 
that the citizens and businesses must feel safe that they are 
going to have a certain level of protection before they can 
return and reinvest in their communities and rebuild. In a 
meeting last week, New Orleans business leaders made it very 
clear that without increased hurricane protection, they could 
not return.
    Therefore, we are seeking support for category 5 hurricane 
protection that integrates coastal restoration for region-wide, 
long term protection. Restoring our coastal wetlands is an 
integral part of this long term solution, incorporating water 
quality issues, reducing the dead zone and perhaps most 
importantly, reducing the storm surge.
    It is true, scientists tell us that for every 2.7 miles of 
wetlands, storm surge height can be reduced by 1 foot. However, 
we continue to lose our wetlands at the rate of 24 square miles 
a year.
    Hurricane protection must be done in concert with coastal 
restoration. They should not be separated. Water resource 
issues must continue to be addressed comprehensively and 
executed in a programmatic way, not piece-meal.
    In light of the recent disasters, we have been asked if the 
LCA, I think someone mentioned LCR, it is the Louisiana Coastal 
Area plan that is now pending in WRDA, is still relevant. We 
think it is more important than ever. We are probably going to 
have to do a little project prioritization shifting, but the 
basics are there, and what was needed before is absolutely 
needed now.
    We also at the same time have to consider the conditions 
that now exist out in the marsh. This is typical, any time you 
have a major storm event, especially of this magnitude, we have 
to understand and assess what is out there and we are going to 
have to adapt our plans to follow. This is true all across our 
coast now, because basically every portion of our coast has 
been impacted.
    Before you, you have a proposal that the State sent our 
delegation on September 8th in response to their request for 
recommendations on how to address the rebuilding. I want to 
just race through a few of the key concepts that we think are 
important.
    That we should implement the program through a partnership 
between the State and the Corps through the Mississippi River 
Commission, supported by a working group of State and Federal 
agencies that includes scientists from the academic community, 
both in the State and out of the State, ensuring that sound 
science and engineering continues to lead the effort.
    We have to accelerate construction of proposed hurricane 
protection projects to withstand category 5 storms, and we must 
repair existing hurricane protection and upgrade them to do the 
same.
    In spite of continuing subsidence of the landscape and 
changing climate conditions, the engineering community assures 
us it can be accomplished if these issues are taken into 
consideration. I look forward to hearing what the Dutch say on 
that issue.
    We must implement the comprehensive suite of coastal 
restoration measures recommended in the Coast 2050 plan and we 
do realize that is a blueprint, and the LCA, which came about 
basically because OMB asked us to scale back, to not address 
this comprehensively, and to scale back and deal with what was 
most immediately necessary, which we did. That is the LCA, 
which is what we consider the near term first steps of 
implementation.
    It is critical that we streamline the implementation 
process and move immediately to design and construction. We 
can't simply initiate traditional feasibility studies that take 
a minimum of about five years on projects like these. By the 
Corps' own admission, it takes an average of 11 years from 
authorization to completion of a project. If you add the 5 
years of pre-authorization to that, it would be 16 to 20 years 
before we have adequate hurricane protection from future 
storms. We simply don't have 20 storm seasons to wait.
    We must have a sustained source of funding in the form of 
direct sharing of OCS revenues, I know you have heard this 
before, to protect and sustain our vital energy infrastructure 
to provide the hurricane protection we need and to restore our 
wetlands. Our cost estimates are about $32 billion to 
accomplish these things. It is a very reasonable investment, 
compared to the hundreds of billions of dollars in the losses 
caused by Katrina and Rita alone. Sharing the OCS revenues 
would simply allow production supported from Louisiana shores 
to be used to protected Louisiana shores, and we feel would 
have the last impact on Congressional budgets and 
appropriations.
    We know this is a long term effort, especially the coastal 
restoration piece of this. That type of sustained revenue would 
help us pay our share.
    Our predictions, tragically, now are reality. And time is 
definitely not on our side. The way we address the crisis 
cannot be business as usual. Surely the cost to the Nation of 
restoring our coastal lands and providing real safety has now 
been justified.
    I can't emphasize enough how much the State of Louisiana 
values its longstanding partnership with the Corps of Engineers 
and our other Federal agencies working with us to save the 
coast. We recognize the role of this Committee in forging those 
partnerships, and we appreciate it very, very much.
    We are committed to spending Federal funding wisely on cost 
effective projects that produce real results and meet 
environmental requirements. We are not asking for exemptions 
from NEPA or the Clean Water Act. But we do need a commitment 
from the Congress and the Administration that we all work much 
smarter and much, much faster.
    In closing, I would like to remind you that this is no 
longer theoretical. It is very real. And real people have lost 
their lives, and hundreds of thousands more across the Gulf 
region have lost their homes, their livelihoods, their family 
pets, their photographs, their memories, if you will, 
everything. I sincerely ask you to keep the human aspect before 
you as you make your decisions.
    When all is said and done, this is not just about numbers 
on a spreadsheet. It is about serving people just like you and 
me. It is about rebuilding their dreams and their aspirations. 
It is about Americans and their safety and their future. It is 
about the economic and human sustainability of our Country. 
Thank you.
    Mr. Duncan. Thank you very much, Ms. Coffee. Certainly 
those of us who have been down there will testify that it is 
the worst devastation that we have ever seen. On the other 
hand, I think we will be amazed at how fast certain things come 
back, because we are talking about people's homes here. For 
instance, General Strock mentioning the high school that they 
have gotten back open now with 1,200 students already. Those 
types of reconstruction are going to be very important. There 
are also areas that are going to take years to recover.
    But you are right, we do need some studies to make sure 
that we act accordingly. But on the other hand, we don't need 
years and years and years of studies. We have to have action, 
too.
    Dr. Walker.
    Mr. Walker. Good morning. I'm Bill Walker, and I serve at 
the pleasure of Mississippi Governor Haley Barber as Executive 
Director of the Mississippi Department of Marine Resources.
    Coastal Mississippi has been devastated by Hurricane 
Katrina. Our entire coastline found itself in the most damaging 
northeastern quadrant of this category 4 hurricane for 12 
hours. While property damage caused by this catastrophic event 
is evident to anyone who has visited the area since the storm 
and seen first hand the swath of destruction along U.S. Highway 
90 and inland for many blocks, the effect on coastal ecosystems 
and the renewable natural resources that depend upon them are 
less evident to the casual observer.
    These resources, however, and Mississippi's ability to 
harvest and process them, have been devastated. Mississippi's 
commercial seafood industry produces an economic impact of 
about a billion dollars a year and employs some 17,000 people. 
Our recreational fishermen take some 1 million trips each year, 
with an economic impact of nearly $200 million. These drivers 
of coastal Mississippi's economy are presently out of operation 
and they must be restored.
    Mississippi's oyster reefs produce some 400,000 sacks of 
oysters annually, with an economic impact of $100 million and 
an employment level of some 2,200 people. This industry has 
been brought to its knees by Katrina and it must be restored.
    Mississippi's offshore barrier islands include Petit Bois, 
Horn, Ship and Cat Islands, the islands comprising the Federal 
Gulf Islands National Seashore. This island chain is located 
some 12 miles south of coastal Mississippi, and provides our 
natural first line of defense against hurricanes and other 
tropical storm systems.
    Unfortunately, these natural barriers have suffered from a 
series of onslaughts, first from Hurricane Camille in 1969, 
then Hurricane Georges, then Hurricane Ivan, and finally 
Hurricane Katrina. Katrina alone destroyed over 2,000 acres on 
these four barrier islands. Deer Island, Mississippi's sole 
inshore barrier island, lost nearly 25 percent of its total 430 
acres to Katrina.
    But as important as the actual acres lost, the elevation of 
the remaining island footprints has been reduced to near sea 
level through almost complete destruction of all island dunes 
and at least 50 percent of all island vegetation. These damaged 
barrier islands are now in imminent danger of further 
catastrophic erosion without extensive and immediate beach, 
dune, vegetation and marsh restoration.
    Should another hurricane hit our region now, our barrier 
islands would afford little if any protection to coastal 
Mississippi. These protective capacities must be restored. 
Coastal marshes, as has been mentioned by several of the 
speakers, also serve the Mississippi Gulf Coast by providing 
critical, essential habitat and also buffer the effect of 
coastal storm surges. The overall footprint of vegetative 
mainland coastal marshes remains similar to that before 
Katrina, but the elevation of these marshes, and particularly 
the upland areas immediately adjacent to them has been reduced 
significantly, making them and the landward areas which they 
protect extremely vulnerable to future hurricanes.
    Other resources, such as the Mississippi offshore 
artificial reef system, submerged seagrass beds, our State's 
spotted sea trout hatchery, our emerging ecotourism industry, 
and numerous cultural and historical resources, have been 
drastically altered or destroyed by Hurricane Katrina. These 
losses are described in my submitted testimony and they must be 
restored.
    Our restoration plan presents a two-phase approach. Phase 1 
focuses on restoring Mississippi's natural storm defenses, 
flood control capacities and our coastal habitat functions to 
pre-Katrina levels. Our Governor has said that if all we 
accomplish through all the recovery efforts is to get back to 
where we were before Katrina, we will have failed. Mississippi 
also includes a Phase 2 restoration effort, which will return 
our storm protection capacity, our flood control capacity and 
our ecosystem function to pre-Hurricane Camille levels.
    Both phases will also investigate non-natural defenses, 
such as breakwater seawalls and other mechanical storm surge 
diffusion approaches. The time frame for this plan is 15 to 20 
years. We anticipate completing Phase 1 activities in the short 
term, one to five or so years, with Phase 2 efforts beginning 
in the near term and extending out some 20 years.
    These restoration efforts will focus on improving flood 
control capacities by de-snagging and stream bed reconfiguring 
of coastal riverine systems and their tributaries, increasing 
our natural hurricane protection capabilities through extensive 
restoration of our offshore and nearshore islands and marshes, 
and the restoration of our environmentally important and 
economically critical coastal ecosystems and habitats.
    We anticipate that with Federal assistance, coupled with 
State support and private sector participation, we will be able 
to ultimately restore Mississippi's capacity for hurricane 
protection, flood control and ecological function to pre-
Hurricane Camille levels.
    Now, more than ever, we need to partner. I am proud of the 
partnerships that the State of Mississippi has forged with our 
Federal friends at FEMA, with the Corps of Engineers and other 
agencies. I agree with statements earlier that we have today 
the opportunity to do things right, to provide a model, an 
example of how to respond in the face of crises like this. I am 
confident that if we partner together, we can be successful.
    Thank you again for the opportunity to address you today.
    Mr. Duncan. Thank you very much, Dr. Walker.
    You may have heard in my opening statement where I said 
those of us who went down there saw the worst damage of all in 
Mississippi. The damage in New Orleans is horrible, and many of 
those homes will have to be destroyed. But most of those homes 
are still there, and some of them are in pretty good shape, 
many of them in good shape.
    But we saw miles and miles and miles along the Mississippi 
coast land where blocks and blocks, several blocks of homes 
were just gone, totally. So it was really quite--it is more 
dramatic when you see it in person instead of just on a little 
TV screen.
    I am going to go for first questions to Ms. Johnson and let 
my Ranking Member have the first questions here. Ms. Johnson.
    Ms. Johnson. Thank you very much.
    My first question is to Assistant Secretary Woodley and 
General Strock. What steps have you taken to be sure that the 
construction contracts for the rebuilding of the levees and any 
other hurricane related work that you might contract on behalf 
of Federal agencies is carried out by local contractors?
    Mr. Woodley. Thank you for your question. I am going to ask 
the Chief of Engineers to respond.
    General Strock. Yes, ma'am. Earlier you mentioned the 
challenge of the various tradeoffs we have and what we face in 
response to a disaster is the need to bring in, in a very big 
way, massive support to begin things like debris removal and 
temporary housing. For that reason, we rely on advanced 
contract initiatives, where we compete in advance. We try to 
create opportunities for small businesses.
    In the case of water, we have a small business firm 
delivering water to supply to the affected people.
    After the crisis begins to pass, we can then rely on a more 
focused effort to bring local and small businesses into the 
effort. We are making that a very high priority.
    In the interest of time, ma'am, I would like to submit all 
the statistics for the record. But I can assure you that it is 
a very, very high priority for the Corps of Engineers. In 
addition to a focus on direct prime contracting, which is most 
important to the local economy, we do use the provisions of the 
Stafford Act, which require that the prime contractors give 
preference to local and small business. We require them to 
report on how they are doing.
    I am very encouraged with the results we are getting from 
our prime contractors in utilization of particularly local and 
small business as subcontractors. So we are working it very 
hard.
    Ms. Johnson. Thank you very much.
    Assistant Secretary Woodley, you state that the 
Administration is working with Congress and the State of 
Louisiana to develop an appropriate generic authorization for 
the Louisiana coastal area ecosystem protection and restoration 
program. Who are you working with?
    Mr. Woodley. We are working with the appropriate 
committees, this Committee and the appropriate committee on the 
Senate side to make sure that this type of authorization takes 
place within the context of the Water Resource Development Act.
    Ms. Johnson. Has the Administration given up on enacting 
the water bill?
    Mr. Woodley. No, indeed. We have not by any means given up 
on enacting the water bill.
    Ms. Johnson. Do you know anything about the progress of it 
in the Senate?
    Mr. Woodley. The progress in the Senate, the Senate is 
undertaking its constitutional responsibility in this regard.
    [Laughter.]
    Ms. Johnson. Thank you very much.
    Mr. Grumbles, would you like to comment on that?
    Mr. Grumbles. On Assistant Secretary Woodley's remark?
    [Laughter.]
    Ms. Johnson. Yes.
    Mr. Grumbles. I don't know what the status of the 
legislation on the Senate side is.
    Ms. Johnson. We know that your agency will be very busy in 
taking steps to help restore the flood protection to the pre-
Katrina levels. I am not sure that is even adequate, to the 
pre-Katrina levels. But for the work to enhance protection to 
category 5, some have proposed waiving normal project 
development procedures, including waiving environmental laws. 
Do you support such call for those waivers?
    Mr. Grumbles. I think there are some waivers that are being 
issued under the Clean Air Act. I think what is really required 
is first and foremost the responsibility of recovering and 
rebuilding communities and doing so consistent with the 
environmental laws. Common sense also needs to play an 
important role in that, and we need to take site by site, case 
by case instances into mind, provide flexibility but also 
accountability.
    I know for instance, Congresswoman, with respect to some of 
the wastewater treatment plants, there is a real need to 
demonstrate discretion in terms of enforcement. You can't 
require or expect a facility to be meeting certain important 
requirements under an environmental law if the facility isn't 
even operable. So there is a need for common sense and giving 
some time with milestones and accountability and tools to 
rebuild.
    We are continuing to monitor and look for situations and to 
learn more about whether or not there are any other provisions 
or greater flexibility that is needed under the environmental 
laws.
    Ms. Johnson. Thank you very much. My time has expired.
    Mr. Duncan. All right, thank you very much.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Woodley and General Strock, as we go through and take a 
look at the kinds of things that need to be done to create the 
buffers, protect the infrastructure, it seems to me that a 
number of changes have to take place in the traditional 
engineering of the levees, the canals, the sediment diversion 
and those kinds of things.
    So do you see, in your plan, 2050, LCA, the Breaux Act, all 
those things, do you see as you are going through to take a 
look at how to restore the buffers, the wetlands, the 
vegetation, sediment diversion, all those things, do you see a 
need to close any canals? I am asking in particular MRGO. Is 
there any status on that yet?
    Mr. Woodley. Congressman, that type of decision would be 
one for the future. But the program that we have proposed in 
the chief's report for the Louisiana coastal area restoration 
has entered a very strong element of adaptive management that 
calls for the study and a scientific--
    Mr. Gilchrest. That canal is a possibility?
    Mr. Woodley. I would certainly say it is not by any means 
off the table.
    Mr. Gilchrest. Ms. Coffee, is that one of your 
considerations? Some of the canals that may have to be closed 
to prevent another storm surge, is that in your thinking?
    Ms. Coffee. MRGO has always been in the mix. That is a very 
important issue to a lot of people, especially today. Yes, we 
want that canal environmentally restored, and we want the 
decision on it made sooner than later.
    Mr. Gilchrest. You would like to see that canal closed, so 
the sediment would fill it in and it wouldn't be used any more 
for transportation purposes?
    Ms. Coffee. I don't know if the sediment will ever fill it 
in. It is huge. But yes, we would like to see it, if not 
closed, at least reduced to shallow draft or whatever. But I 
think that the modeling is going to have to show us that.
    Also, the modeling has to be improved. We have to balance, 
what we are trying to do with MRGO is balance the needs of the 
Port of New Orleans with the environmental needs. As I said, we 
would like to get to the point that we can make that decision 
much sooner rather than later.
    Mr. Gilchrest. In your consideration of protecting the 
lower Louisiana coast from a category 5 hurricane, do you 
envision, and if you can include in your thinking that your 
barrier plan to protect New Orleans, is there anywhere in your 
thinking that some communities may have to be relocated?
    Ms. Coffee. We have talked to year about this, and know 
that eventually these decisions have to be made. I think the 
decisions are, what has happened has possibly accelerated those 
types of decisions. I want to stay very sensitive to the fact 
that these are peoples' homes, these are peoples' communities 
that they have lived in for generations and fished and all the 
rest.
    But I think it's all a matter of protection. I think we 
have to look at insurance, are they going to still be protected 
by insurance, is FEMA going to offer flood insurance in certain 
ares, is the Congress willing to spend the money on certain 
pieces of that plan? I think that is what is ultimately going 
to dictate the choices.
    Mr. Gilchrest. Yes, ma'am, very difficult human issues.
    Ms. Coffee. Very.
    Mr. Gilchrest. Mr. Grumbles, we miss you up here. I'd like 
to go back to 1995 and do the Clean Water Act all over again.
    Is there an estimate as to the amount of municipal trash 
that was generated as a result of Katrina based on the normal 
amount of municipal trash that Louisiana has to deal with?
    Mr. Grumbles. Congressman, I don't have a specific number. 
I would say a couple of things. One is that EPA, not my office, 
but the Office of Solid Waste and Emergency Response has been 
spending a tremendous amount of time and attention on the 
debris issue and the demolition waste, and working with the 
Army Corps, which has a lead role in that area.
    I think it is important that you are bringing up one of the 
greatest environmental challenges presenting in the Gulf, as 
the debris and the waste management. I know EPA is looking for 
ways to not only manage it appropriately and to help State and 
local authorities, but also to encourage recycling and re-use 
of uncontaminated waste.
    But I commit to provide you and the Committee with some 
numbers or more specific data on that point.
    Mr. Gilchrest. Thank you very much. My time is up. I would 
like to talk to Dr. Walker later about the differences between 
the Mississippi coast in ecological and geologic terms and the 
Louisiana coast and how the restoration projects might be 
different.
    Mr. Duncan. Thank you very much. Mr. Pascrell.
    Mr. Pascrell. Yes, to the Assistant Secretary. I am 
concerned about the plan to clean up the wreckage caused by 
Katrina, especially in New Orleans. Because 22 million tons of 
garbage and debris are sitting in the city as we speak. The 
Corps tell us that it would take 3 and a half million large 
dump trucks to remove this destruction from the city. I know 
that the Corps has awarded billions in contracts to remove the 
waste.
    In the Sunday Times, this past Sunday Times, the Corps 
commented that this process would take seven months. Yet the 
State argued it would take two years to clean up the debris. 
What seems more accurate to you, and can rebuilding really 
begin until this material is removed?
    Mr. Woodley. I would have to ask the Chief to comment with 
respect to the timetable on it. I can tell you that our 
endeavor is to complete the work as quickly as possible, as 
soon as it can be done in a way that is environmentally 
responsible and appropriate and safe. The other part of your 
answer is that the ability to begin reconstruction will have to 
be gradually extended in cooperation with the State and local 
government on a neighborhood by neighborhood basis, and we are 
very sensitive to their priorities.
    Let me ask General Strock to comment on the timetable.
    General Strock. Yes, sir, we normally speak in terms of 
cubic yards of debris. So I can't comment on the tonnage you 
cited there. But our estimate of the debris that the Corps of 
Engineers is charged with removing is about 44 million cubic 
yards across the coast. That is the four States involved here, 
and again, that is the mission that has been handed to the 
Corps. That does not include demolition debris, which we think 
might drive it up considerably, perhaps as much as 70 million 
cubic yards, if we have that mission in those same impacted 
counties and parishes.
    Sir, to put it in context, Hurricane Andrew generated about 
19 million cubic yards of debris. It took us 19 months to clear 
that away. In this case, so far on day 50 here, after Katrina, 
we have removed 13 million cubic yards. So we are well ahead of 
what would normally be expected after a catastrophe of this 
magnitude.
    Now, at that rate, we certainly couldn't, there is not a 
linear relationship, because a lot of what we moved has been 
the easy stuff. Now we have to get into some sediments and 
contaminated materials that Mr. Grumbles talked about. It is a 
matter of setting priorities and ensuring that we are working 
with the locals so they get access to critical facilities and 
that sort of thing. Clearing rights of way, waiting for the 
private citizens to return and move their debris off their 
property onto the rights of way where we can pick it up, 
negotiating conditions for going into private property, which 
we must do after this circumstance.
    Mr. Pascrell. Is there a plan to do that, General?
    General Strock. To go on private property?
    Mr. Pascrell. Yes.
    General Strock. Yes, sir, there is. We have been given the 
authority to do that. It is very much like our roofing mission, 
we require a specific right of entry, signed by the landowner. 
It will be done in a very careful and respectful manner to make 
sure that we are not doing any unnecessary effort.
    But clearly, as Mr. Duncan pointed out, in the coast of 
Mississippi, we cannot expect private landowners to be 
responsible for removing debris from their yards when that 
debris has traveled a quarter of a mile from the coast and it 
is their neighbor's house. So there clearly needs to be a 
little different way of thinking about debris removal in this 
circumstance.
    But sir, I am convinced we are going to get this done, 
expeditiously and in a very environmentally sensitive way. For 
example, I flew over New Orleans yesterday and I saw a yard of 
thousands of white good, refrigerators, washing machines and 
those sorts of things, segregated and set aside for recycling. 
So we are very careful about how we do this.
    Mr. Pascrell. Thank you very much. I would like to ask, if 
I may, one question to the Assistant Administrator for Water 
and Environmental Protection, Mr. Grumbles. Has the State and 
city been working with you to assess environmentally dangerous 
materials in any of this debris, and have we analyzed the 
health impacts on people returning to their homes that are 
surrounded by this waste?
    Mr. Grumbles. Congressman, I am going to give you a short 
answer and also commit to get back to you with more detail from 
those who have been most involved in it, rather than me and the 
Water office. I know that we have been spending a considerable 
amount of time working with State and local officials and 
certainly the Army Corps, when it comes to debris, to try to 
get a sense of what it is, as well as to plan responsibly for 
how to manage it. Of course, providing information and tools 
and necessary precautions to people who are intent on getting 
back to their homes is also a very important component for us, 
the whole habitability issue, providing appropriate information 
so that local officials and the appropriate authorities can 
inform citizens as to what they should be doing is a high 
priority.
    Mr. Pascrell. Where is all this going, by the way? Where is 
all this material going to? When we move it, there is a 
tremendous amount of bacteria. We talked about this during the 
hurricane. Where is the material going? Where are you putting 
it, that's being removed? General?
    General Strock. Sir, vegetative debris, we reduce and use 
for mulch and try to recycle that as we can. White goods, as I 
mentioned, we try to recycle. We do try to minimize the use of 
landfills, although that will be necessary in many cases. It 
depends on the nature of the debris and if there are any 
hazards associated with it.
    But we are trying to do dual-use things. For example, in 
Plaquemines Parish, we need burrow areas for levee 
construction. So working with the local parish, we are doing 
the permitting to convert those burrow areas into landfills and 
then refill them and somewhat restore the topography in that 
way. Many different ways to dispose of it.
    Mr. Pascrell. It seems to me that putting things in order 
before we get into the great debate as to what New Orleans and 
what folks living in New Orleans want New Orleans to look like, 
what will be built and what won't be built, we need to do 
everything we can to assure that the health of these people, 
who, many of them went back prematurely. We understand that. 
Many of us would probably have the same urge if given the same 
set of circumstances.
    But that's critical. And I think the Congress needs to know 
what the timetable of that is, working with the State, and to 
assure people that they are going back into an environment that 
is not going make them sick, short term, long term. I think 
that is critical, don't you?
    Mr. Grumbles. Most definitely. And I know from the 
Administrator's perspective, and from the Deputy 
Administrator's perspective, that is one of the highest 
priorities for the Agency and its mission, in carrying out our 
response to Katrina and Rita.
    Mr. Pascrell. Thank you very much.
    General Strock. Sir, if I could, another example of things 
we are trying to do is take highway debris, the concrete and so 
forth, the rubble of these destroyed structures, and take them 
offshore and build artificial reefs or perhaps barrier 
protection on the islands. So we are making every effort to re-
use this debris in a beneficial way.
    Mr. Pascrell. Thank you.
    Mr. Duncan. We have some votes starting up.
    Dr. Walker, you heard Ms. Coffee use a figure of $32 
billion in their request that they have made. You mentioned in 
your testimony that 60 percent of your shrimp industry was 
destroyed, that you have an oyster industry worth $100 million 
a year and so forth.
    Has Mississippi come up with a figure comparable to what 
Ms. Coffee just mentioned for your needs and your 
infrastructure restoration needs?
    Mr. Walker. Mr. Chairman, Governor Barber has asked me to 
present to him some information and some dollar requests for 
coastal Mississippi. He has also asked the Mississippi 
Department of Environmental Quality to provide information on 
their needs, the Mississippi Department of Wildlife Issues and 
Parks and other State agencies. As you may expect, those 
numbers have gone through several revisions. They started 
relatively large and now they are shrinking, as they should.
    I hate to step out and speak for what the Governor is going 
to do, but I will just simply say that it will be in the 
billions with a B level. It may be in the tens of billions. It 
won't be in the hundreds of billions, the request that comes 
from Mississippi.
    Mr. Duncan. All right.
    Ms. Coffee, it is my understanding that in the State of 
Louisiana of course, we have already spent billions on some of 
the FEMA emergency relief and people all over the Country have 
either contributed in cash or voluntary hours. I mentioned 
before that I don't think there is a police department, fire 
department, sheriff's department that didn't send people down 
there. So you have had billions of dollars worth of cash 
contributions or manhours that have been contributed.
    Is the State requesting that this $32 billion be 100 
percent Federal? Because that is what I was told. You said in 
your testimony when you first started out that you thought this 
should be a shared obligation between the State and the local 
people and so forth. What is your understanding?
    Ms. Coffee. I feel like there needs to be, we feel like 
there needs to be an infusion on the front end, obviously, to 
get things started, to get it jump started, especially when it 
comes to the hurricane protection. That is an immediate need, 
really, that is an immediate need.
    With coastal restoration, we have always tied OCS revenue 
sharing with that, because we know that the coastal restoration 
piece, while we need an initial boost to go ahead and jump 
start some of these projects that we think are needed, in 
concert right here at the beginning, we know that the coastal 
restoration piece is a long term effort. If we have the OCS 
revenues we feel we rightly deserve, we can use those.
    Our State has already passed, well, the constitutional 
amendment is coming up before the people, but we just passed 
overwhelmingly, in fact unanimously, in our last session the 
enabling legislation that would allow any OCS revenues that 
come to us, the first $600 million a year, which we thought 
would be on the outside, to be dedicated to coastal restoration 
and impacted infrastructure.
    So our residents, we have been passing this type of 
legislation for years now. We are very committed to using this 
for its purpose.
    Mr. Duncan. I have other questions, but we have to break 
for a vote here.
    General Strock, let me just ask you very quickly, I 
understand that there is some concern that several or many of 
these levees have significant soil erosion underneath. What are 
you finding in that regard? And secondly, feeding off of, or 
building off of Mr. Pascrell's question, have you given any 
consideration to, I understand that a lot of this debris is 
wood and plant waste and possibly could be converted into 
ethanol or some other asset.
    That is two different questions. Can you give us brief, 
quick answers to both of those?
    General Strock. Yes, sir, I can. Sir, as you know, we are 
in the midst of a data collection, and specifically where the 
17th Street and London Avenue canals are concerned, we do 
think, the preliminary result of that is that the breaches in 
those levees were caused by a soil shift or an embankment 
shift. So the soil moved there, and we suspect that is because 
of foundation conditions. So as always, we have been concerned 
about the quality of soil and its ability to serve as part of 
the storm protection system.
    Sir, on the recycling and ethanol, I was handed a paper 
when I was down there recently on a process that can be used to 
do that. It is quite expensive, a plant will take about $250 
million to build and about eight months to do it. Of course, 
then it becomes an enduring asset to the community. But that is 
a possibility for recycling or disposal of this woody debris. 
We are not actively considering that or proposing that we do 
that, but that is certainly a possibility.
    Mr. Duncan. Let me apologize to the panel and the next 
panel, but we have to go now and take a couple of votes. We 
will get back as soon as we can. Thank you very much.
    [Recess.]
    Mr. Boustany. [Presiding] I would ask the panel to please 
take their seats so we can resume.
    I have to apologize for Chairman Duncan's absence. 
Something came up, but I will be handling this hearing for the 
time being. Thank you for your patience. We appreciate it. We 
had a little interruption with the votes, and we will resume 
and hopefully have no further interruptions as we move forward.
    We are going to resume where we left off. I have several 
questions I would like to ask. First of all, Secretary Woodley, 
Committee leadership recently sent you a letter regarding the 
ability of local cost sharing sponsors to pay for water 
resources projects following natural disasters such as what we 
have seen. Is the Corps amenable to using the authority under 
Section 103(k) of the Water Resources Development Act to allow 
non-Federal project sponsors to defer their payments for their 
share of the project?
    Mr. Woodley. Mr. Chairman, that is certainly among the 
options that we will be exploring going forward. I believe that 
a fair case could be made that this is exactly the type of 
situation that that authority was designed to be used in. So 
going forward, we will explore that, and certainly as 
appropriate, as authorizations are made, obviously the 
Committee will express its views to us as to how that should 
proceed.
    But I would fully support using that authority in any case 
in which it was necessary and appropriate to ensure that 
infrastructure was created and the infrastructure necessary was 
constructed and that it was found to be in the best interest of 
the Nation as a whole.
    Mr. Boustany. I thank you for that answer.
    General Strock, I was reviewing a lot of the old testimony 
from this Subcommittee, and in particular with regard to the 
proposed barrier plan that dates back to 1965, and my 
understanding was after Congress authorized this plan, it was 
actually in the process of being implemented and construction 
had begun in May of 1967. Following that, I think it was 
January 1st, 1970, the National Environmental Policy Act was 
enacted and put into place.
    Subsequently, you went back and did an environmental impact 
statement, or the Corps did, and as a result, we had 
litigation. I think it was in 1977, in December, the courts 
issued an injunction halting that construction process. 
Obviously there is a plan in the process of being implemented. 
Is that plan something that is reasonable to work with as a 
starting point, or--I know technology has probably changed 
considerably. Do you think moving forward with a barrier type 
of plan as proposed in some form with modern technology, could 
it meet muster with regard to Environmental Policy Act?
    General Strock. Sir, I believe we would certainly need to 
consider the use of barriers. And I think in the next panel, 
you will hear from the Rijkswaterstaat of the Netherlands some 
views on the use of barriers and dikes. So it is certainly 
technically feasible to do that. And the concept, of course, is 
to take the storm surge off before it gets into Lake 
Pontchartrain. So we would certainly consider that as a 
potential feature in any future improvements of this system.
    Mr. Boustany. I thank you for that answer. Also, I know the 
Secretary of Defense, as you mentioned, has basically asked the 
Secretary of the Army to establish, get a National Academy of 
Sciences panel involved to look at how the levees performed. My 
understanding is that study is due in about eight months.
    General Strock. Yes, sir, that is correct. That is the 
request of the Secretary of the Army to the National Academies.
    Mr. Boustany. Will that have an impact on your planning 
process as you move forward? I know right now, probably most of 
your efforts are devoted to the reconstruction to pre-Katrina 
levels. But I am curious about the timing of this study and how 
it will play out with your future planning, depending on what 
we here in Congress do and so forth.
    General Strock. Sir, I think due to the complexity of the 
questions that need to be answered, that is a reasonable time. 
For example, just today I noted that it requires a 20 day 
waiting period simply to announce that a panel is convening 
before they can begin. That consumes over 20 percent of the 
time.
    Mr. Boustany. Sure.
    General Strock. So--not over 20 percent, that is wrong, but 
that consumes a good bit of time. So I think it is a reasonable 
time.
    What we will do is, as that panel proceeds, if they can 
reach some interim conclusions, we will certainly take those 
and incorporate those into what we are doing to restore the 
existing system. If we find out they conclude there is some 
flaw in a design or construction or something, then we would 
incorporate that into our interim efforts to restore 
protection.
    Obviously if we go to a different level of protection or 
find we need to do something significant, we use that.
    We also are doing a parallel internal review of the same 
effort, which will be peer-reviewed by ASCE and further 
reviewed by the National Academies. As we reach conclusions 
there, we will incorporate that into our response to putting 
the system back together.
    Mr. Boustany. Thank you. One other question for you. Could 
you shed a little light on the relationship between the Corps 
and the local levee boards and how that has worked out, what 
deficiencies you see, what recommendations you may have as we 
move forward?
    General Strock. Sir, I can't comment on that personally. I 
think that is a better question for the district and division 
people on the ground. I can tell you, though, it is a symbiotic 
relationship. In most cases, they are the local sponsors. In 
some cases the State BOTD is the sponsor for some of our work.
    But I can tell you that we work hand in glove with them. 
They have a vested interest in getting it done right. And 
ultimately, we turn it over to them for operations and 
maintenance, so they bear that responsibility. And in 
conjunction with that, we conduct annual inspections to ensure 
that they are being maintained in an adequate fashion.
    Mr. Boustany. And you are satisfied with that regime, 
whereby they handle maintenance, routine maintenance and so 
forth, under your watchful eye?
    General Strock. Yes, sir, I am.
    Mr. Boustany. Okay. That systems has worked well?
    General Strock. Yes, sir.
    Mr. Boustany. Okay, thank you.
    Ms. Coffee, welcome, good to see you. You mentioned 
relevance of the LCA plan and mentioned that, yes, it is 
relevant and yet, we need shifting priorities. I know in my 
review, I look at the September 8th letter, I am familiar with 
what we have in WRDA and most of it is focused in the southeast 
part of the State. We have needs in the southwest part of 
Louisiana.
    I was interested in knowing whether you have any further 
comment or any updates as to what Governor Blanco and the 
Administration feel should be necessary.
    Ms. Coffee. What I meant is that the LCA itself is still 
very much needed. What we have put forth in the LCA, my 
reference was that the storm hasn't changed, Katrina or Rita 
neither changed those needs. Yes, we are very well aware that 
the western part of the State is basically not included on an 
immediate level in the LCA, and that was due to the scaling 
back which was required and asking us to deal with the most 
critical areas, the most critical land loss.
    But yes, and I am not saying for certain that the projects 
will be prioritized, but we are looking at it right now to see, 
well, should we possibly start this before that or whatever. 
The western side of the State needs attention, definitely, 
especially after Rita. It has, as you know, a different set of 
circumstances. But yes, we need some work over there.
    Mr. Boustany. In reference to the southwestern part of the 
State, and it probably applies more further beyond that, when 
you look at the Gulf Intracoastal Waterway, that embankment has 
been considered spoil over the years by the Corps. My question 
is, should we rethink this now and look at some sort of levee 
under the jurisdiction of the Corps as we move forward. General 
Strock, you might want to comment on that.
    General Strock. Sir, I think we should certainly consider 
that. If as we analyze this with the State and this Committee 
and the Administration has felt that a component of more 
protection would be structural solutions of levees, then I 
think we should take advantage of those linear features that 
already exist and incorporate them into a system. In fact, we 
have done some of that already in some proposed projects in the 
area.
    Mr. Boustany. Okay. I appreciate the answer.
    One final question for Ms. Coffee. The levee boards, do you 
have an idea of what type of resources they have available at 
this time as we look at mechanisms for funding?
    Ms. Coffee. I can't specifically answer that to the 
resources. I do know that the State itself has lost a third of 
its revenues.
    Mr. Boustany. Right, I am aware of that.
    Ms. Coffee. So when it comes to the levee protection, it is 
going to be very difficult for us to match that. That is needed 
immediately, and we have no money.
    Mr. Boustany. I appreciate your answer.
    I will now defer to the Ranking Member, Ms. Johnson. She 
has been very patient here and probably has another round of 
questions.
    Ms. Johnson. Thank you very much.
    I know that this task is very daunting and certainly it is 
very frustrating to determine how to get started. I do have 
some concerns, and I applaud the Mayor for attempting to get 
back a tax base as quickly as he can. On the other hand, I am 
concerned that the hurricane season is really still on. The 
levees are still out.
    I wonder if there has been some coordinated planning on 
that or some discussion, because it seems to me that the levees 
are going to have to be constructed a little differently, at 
least according to the October 8th New York Times article, that 
the levees that were constructed were done in soil that was not 
really appropriate to hold, that they needed to have been at 
least, the soil needed to be changed or at least a lot deeper 
to hold them.
    What kinds of discussions or coordination or planning do 
you have in mind to be sure that when there is reconstruction, 
it is not a waste of money and it will do what it has been put 
there to be done, and that you coordinate with the Mayor, the 
local officials, State officials to be sure that this movement 
is in conjunction with the repair?
    General Strock. Ma'am, we are working very closely with 
Mayor Nagin on his decisions on what parts of the city can be 
reoccupied and when. It has a lot to do with EPA and the 
hazards that might be faced by the citizens.
    But it also has to do with the risks they face. There are 
two components of risk there. One, as you pointed out, is the 
condition of the levee system. We are concerned about that. We 
established the interim level prior to Rita, which was exceeded 
in the inner harbor area. We thought we would get a surge of 
about six feet from Rita. We got a surge of over eight feet, 
and we put protection into seven above sea level.
    So right now, we have restored the level of protection at 
the breach sites to 10 feet of elevation, and we think we can 
certainly handle a surge associated with a storm that passes 
away from New Orleans. But again, they remain vulnerable to 
certainly any category of hurricane. So as they decide to 
reoccupy, obviously they have to make sure they have good, 
solid evacuation plans in those areas.
    In terms of the areas that we had soil failure in, 
apparently we are fortunate in that in both of those canals we 
have bridges that transit the canals between the breach site 
and the lake. As we did prior to Rita, we can close those off 
with sheet pile, and that will protect those areas. That is 
good interim protection. So that is what we intend to do, until 
we can understand what needs to be done on a larger scale 
within those levees.
    The other hazard the city faces is interior drainage. The 
big pump systems in New Orleans are not meant to fight floods, 
but to drain precipitation. Those are now back up to about 90 
percent capacity, but we are well aware of those stations that 
are challenged, like the one in the Ninth Ward. We have 
auxiliary pumps and that sort of thing standing by.
    But the Mayor is very well aware of what various levels of 
rainfall would result in terms of further flooding from 
precipitation. So we are working very closely with him to make 
sure that they make informed decisions on when to reoccupy.
    Ms. Johnson. Thank you.
    Mr. Grumbles, I know that the debris removal has not yet 
included the crud or whatever the dried stuff is now, and there 
is quite a bit of it. Has there been any testing on the 
content? Has there been decision as to what you do after you 
scrape it out?
    Mr. Grumbles. Congresswoman, I know that I am going to have 
to get back to you with greater detail on this, because I 
haven't been the one primarily involved in the sediment. The 
Solid Waste and Emergency Response office has. I do know that 
we have done some testing of sediments.
    The Agency has been monitoring for that, because just as 
you say, as the unwatering in the City of New Orleans has 
occurred, through the good efforts of a lot of folks, including 
the Corps, what you are left with is the residuals that may 
have greater health risks. That is why we have been focused on 
that as well in terms of the monitoring, to help inform 
decision makers on how best to manage that sediment.
    But I am going to need to get back to you with more 
specifics on what we have found and the details of it.
    Ms. Johnson. Thank you very much.
    Mr. Boustany. The Chair is now pleased to recognize the 
Subcommittee Chairman, Mr. Shuster. He is Chairman of the 
Public Buildings, Economic--it is a long one--Economic 
Development and Emergency Management.
    Mr. Shuster. Thank you.
    Again, welcome to all of you. Most of you, I guess the 
three on that side have been here many times. Welcome to you 
folks. Thanks for traveling from Mississippi and New Orleans.
    The question I have first is for General Strock. We had a 
quick conversation, I think when we were out in the hall here 
about building up the levees and you conveyed to me that time, 
when you go up and make them higher, you also have to go wider. 
I wondered, do you have an idea at this time, have you been 
looking at design, if we go up and build the levees higher, how 
much ground will we take up? How many homes will be displaced 
if we do that?
    General Strock. Sir, I don't know if have specifics on 
that. That information may be available in the New Orleans 
district. That is certainly one of the considerations that we 
take as we plan how to do the flood protection. In fact, in 
many areas in metropolitan New Orleans, the decision was, there 
was a finite element of ground we were going to take up. For 
that reason, we came up with a combination of levees with a 
floodwall on top. That reduces the footprint.
    The most effective form of flood protection is a levee.
    Mr. Shuster. Which is there today, is what you are saying?
    General Strock. That is what is there today, and that is 
where we had the breaches in the 17th Street and London Avenue 
Canal.
    Mr. Shuster. So it would be significantly wider if we go up 
to the category 5?
    General Strock. Yes, sir. Typically if you go up a foot of 
elevation, it requires about six feet of footprint to go up, 
based on our normal designs for levees.
    Mr. Shuster. And how high would they have to go to resist 
or protect against category 5?
    General Strock. Sir, I am not sure about the storm surge 
associated with category 5. It is designed now to an 11.5 storm 
surge, and hence the walls are anywhere from 15 to 17 feet 
high, with a factor of safety and wave action.
    I have heard the figure of 30 foot levees for category 5, 
but that depends on where you put them, and a lot of conditions 
and variables. But it is that sort of level of magnitude you 
are talking about, 25 to 30 foot levees really would take a 
category 5 storm surge.
    Mr. Shuster. And what happened here was not the water 
coming in off the ocean, well, it was coming into Lake 
Pontchartrain, correct, and it was sort of the backwash out was 
what topped it?
    General Strock. Sir, we are still looking at that. The 
storm surge was actually caused by the wind and the change in 
barometric pressure associated with the storm. Perhaps Dr. 
Hoogland can talk more about that than I can.
    The storm surge was really the cause of this, because the 
surge went up into Lake Pontchartrain, we have modeled this and 
we think we know what happened. We are still trying to gather 
the data.
    One of the problems is that all the sensors were destroyed 
in the storm, so we really don't know exactly what happened. 
But there was clearly a very significant storm surge in 
Pontchartrain, and the challenge there is that once it gets 
into the lake, because of the narrow outlets, it stays there 
and it is rather like draining a bathtub with a straw, it just 
takes time to go down. So you had this elevated level of water, 
you had the dynamics of four hours of constant pounding and 
between those forces we had a breach in the levee and we 
couldn't contain it because the lake levels remained high.
    Mr. Shuster. And if you build it to withstand a category 5 
hurricane, you still can't put a guarantee that it could be a 5 
plus, you are never certain, I guess you could build 100 foot 
high levees, you are not going to be able to guarantee that 
even at a 30 foot high wall that the surge may even go higher 
than that?
    General Strock. Sir, there is risk involved. We talk in 
terms of levels of protection in terms of years of events, 100 
year, 200 year events. It is my understanding that the Dutch 
have gone to a 1 in 10,000 year event that they are protecting 
against. So those are pretty good odds.
    I think it is technically feasible, but again, you have a 
lot of social things, you are talking about how much land it 
takes, how much cost it is and so forth. That is why I think we 
would have to consider something like the barriers, which would 
take the storm surge off, that would reduce the need for higher 
levees and gates and that sort of thing in the city.
    Mr. Shuster. Looking at the City of New Orleans, it is a 
little above sea level in some places, but I think I have read 
as low as 12 feet below sea level, that adds to the problem, is 
that correct? In your view, are there parts that are below sea 
level that you would look at and say, well, maybe this isn't 
the best place to rebuild?
    General Strock. Sir, what that adds to, I think, the 
frequency of the storm is what it is. But the impact of the 
storm is magnified by where you sit in the city. So that is the 
real challenge there.
    Land use and zoning and that sort of thing is up to the 
local authorities on whether and how to reoccupy. Of course, 
that will be influenced by things like flood plain mapping and 
whether FEMA is willing to insure, and whether the industry is 
willing to insure people who go into that kind of situation.
    So it is not for us to say. What we will do then is create 
the technical, economic and environmental solutions, should 
they choose to operate in those areas in a way that protects 
them.
    Mr. Shuster. When those levees were built, I have either 
read or was told the Corps wanted to put flood gates on or 
surge gates, and the locals decided at that point they didn't 
want to do that. Is that accurate?
    General Strock. Sir, it is a long and evolutionary process 
that started with the barricades as an outer barrier to stop 
it. Once that was ruled out, our suggestion was that flood 
gates across the canals would be appropriate, that we could 
close in an event. But the challenge with that is that when you 
close those gates, typically a hurricane has water as well. As 
they pump water out of the city into those canals, then the 
water level, the water has nowhere to go.
    So they were concerned about closing off those canals that 
could not be operated during hurricanes. Then we evolved to a 
solution of what we call parallel protection, that is armoring 
the sides of those canals to withstand the forces. We thought 
we had done that, and we will find out soon whether we did or 
not.
    Mr. Shuster. Also, I saw an estimate of $5 billion, does 
that sound right, to build the levees up to 30 feet or to 
withstand a category 5?
    General Strock. Sir, I can't comment on the specifics of 
how we do that. The reconnaissance study that was completed in 
2002 suggested that it is probably a $3 billion to $3.5 billion 
job to protect the parishes in New Orleans, the Lake 
Pontchartrain Hurricane Protection Study, to raise it to a 
category 5 level.
    I think we have gone back and looked at that a bit now, and 
with some enhancements we think we would like to put in there 
if we get the opportunity, it may go higher than that. It is 
likely to go higher than that.
    Mr. Shuster. When you do an estimate, do you just basically 
do it on what it costs to construct it, or do you factor in 
things like environmental challenges, you might have court 
challenges if you are going to move people and there are going 
to be people upset?
    General Strock. Sir, we don't factor in the potential for 
litigation. We assume we are going to do things right that will 
protect us from that.
    But we certainly do, as we look at this, we look at 
national economic benefits, that is cost benefit ratio, what is 
being protected versus the cost of the protection. We look at 
regional economic development benefits, at least consider 
those. We look at environmental impacts and benefits. And then 
there other things, social and environmental justice and those 
kinds of things that we consider.
    But the driver is the national economic development 
benefit, the cost benefit ratio, the value of the property 
being protected versus the cost to do that.
    Mr. Shuster. And I heard six to one, does that sound right?
    General Strock. Six to one is a typical one. I believe that 
is the current cost benefit ratio of a category 5. I am not 
certain on that, but I think that is about right, yes, sir.
    Mr. Shuster. Okay. Are there other things you can do 
besides building the levees up, if a decision is made not to 
build them to withstand a category 5, can you move houses out 
of the way and do retention ponds or storm drain runoff type 
facilities, or even a canal? Does that make sense?
    General Strock. Those sorts of things I think make a lot of 
sense in dealing with the post-event. For example, I think 
clearly the city needs to give some thought into bringing some 
of their electrical stations and pumping stations up above a 
flood level, because they are all down below the flood level 
now, because they were meant for interior drainage. So the city 
needs to consider those things, so they can deal with it after 
the fact.
    Most of the newer pump stations in the city are up along 
the levee walls on the lake front and on the river front. The 
older pump stations, which represent a tremendous investment in 
capital, are in the middle of the city. So I think they 
certainly need to look at measures like that to make the 
pumping stations less vulnerable to flooding, should it occur.
    Again, I go back, I think, in terms of reducing the 
likelihood of a flood. You can either build higher and stronger 
around the city or you can build perhaps a layering of 
protection with perhaps something tied to barriers and that 
sort of thing to reduce the storm surge that would require 
lesser effort around the populated areas.
    Mr. Shuster. So that is an option to do, if they decide not 
to go up?
    General Strock. Yes, sir, it is.
    Mr. Shuster. You can do those types of things?
    General Strock. Yes, sir.
    Mr. Shuster. I see my time has expired. So thank you very 
much, I appreciate it.
    General Strock. Thank you, Mr. Shuster.
    Mr. Boustany. The Chair now recognizes Mr. Boozman from 
Arkansas for five minutes.
    Mr. Boozman. Thank you very much. We appreciate you all 
being here.
    As I go around my district, the people of Arkansas want to 
help and feel like we have a commitment. But I think there is 
great concern that this money be spent in an appropriate way. 
So very quickly, I'm interested in your input, and I have 
worked with all of you very closely, I have all the respect in 
the world. But this thing has to be done very transparently. In 
order to satisfy our citizens' concerns, to satisfy this 
Committee's concerns, and I think Congress' concern on both 
sides, I would like for you to reassure us publicly that you 
are going to make every effort to do that.
    Then too, if you have any comments about perhaps any 
additional mechanisms that we need to put in place to assure 
Congress and to assure the public. Certainly we are going to 
have oversight, but to make this thing as transparent a process 
as it can be, and to ensure that the money that we allocate, 
especially in this time with so much going on, is spent as it 
should be spent.
    General Strock. Sir, I will start and then turn it over to 
the Secretary. First of all, in terms of transparency, there 
are many aspects of this. One of those is the forensic work we 
are doing right now to figure out what actually occurred. That 
must be absolutely transparent and very inclusive to make sure 
we have all points of view so that we really do understand what 
happened, so that we can build necessary enhancements back into 
the system.
    We have ownership of that, so we are very interested in 
making sure that is an absolutely transparent process. I do 
know that there are some people who may be skeptical about our 
ability to investigate and analyze our own work. So I will turn 
it over to the Secretary, because in recognition of that, there 
is an effort that is above the Corps of Engineers in which we 
nest and contribute, but is overseen by others. I am not sure 
if that is the transparency you are talking about, but it is 
certainly one that is important to us.
    Mr. Woodley. Yes, sir, Congressman, we have two aspects, as 
you mentioned, the first being the transparency and the public 
assurance necessary that we have gotten to the bottom of the 
breaches, the causes, and we understand what happened and why 
it happened with Hurricane Katrina and the way these works that 
were in place on August 28th functioned.
    We are going to first of all operate a transparent process 
to determine that, then we are going to overlay on that another 
transparent process in which we get independent review from the 
National Academy of Sciences, the world's most respected 
independent scientific review body that we have at our 
disposal. So I have great confidence that at the end of that 
process, you and the Committee and the Congress and the 
American people and the Administration will all have the high 
level of confidence that we have vetted the process completely 
and we have a thorough understanding of what took place.
    The second piece is the question of what is, what plans are 
going go be made and what plans are going to be laid going 
forward as we look to new dispensations on hurricane and storm 
protection for this region. Of course, you know that the Corps 
of Engineers process, the feasibility study process and the 
NEPA process that we go through for all of our projects is one 
of the most open processes in Government.
    So we will certainly commit to using that process going 
forward and have all the reports and recommendations that are 
submitted and come forward after full public review, after 
review in the Chief's office and review in my office, and then 
submittal to the Committee, that everything that goes into our 
decision making process will be fully available to everyone. 
The same thing applies, I am sure, to the State and municipal 
authorities that are involved in these decision making 
processes.
    Mr. Boozman. Thank you very much. Thank you, Mr. Chairman.
    Mr. Boustany. I would ask the two gentlemen if they have 
any additional questions. We do have some time, if you would 
like. No? Okay.
    That being the case, I want to thank this distinguished 
panel for being with us. This will conclude the questioning of 
the first panel, and we will start up with our second panel. 
Thank you very much, to all of you.
    I would like to welcome the second panel to this hearing. 
We have a very distinguished panel here with us today. We have 
Dr. Robert Dalrymple, on behalf of the American Society of 
Civil Engineers. He is a professor of civil engineering at 
Johns Hopkins University in Baltimore.
    We also have Dr. Denise Reed, Professor of the Department 
of Geology and Geophysics at the University of New Orleans in 
New Orleans, Louisiana. Welcome. I hope your home is okay.
    We have Mr. Raymond Butler, Executive Director of the Gulf 
Intracoastal Canal Association, from Friendswood, Texas. Dr. 
Roy A. Dokka, Professor of Engineering, Director of the 
Louisiana Spatial Reference Center and Center for 
GeoInformatics at Louisiana State University in Baton Rouge. 
Mr. Jan Hoogland, Director of the Rijkswaterstaat in the 
Netherlands, accompanied by Mr. Dale Morris with the Dutch 
Embassy.
    Welcome to all of you. We will start with the testimony 
from Dr. Dalrymple.

  TESTIMONY OF ROBERT A. DALRYMPLE, PH.D., P.E., WILLARD AND 
LILLIAN HACKERMAN PROFESSOR OF CIVIL ENGINEERING, JOHNS HOPKINS 
 UNIVERSITY; DENISE J. REED, PROFESSOR, DEPARTMENT OF GEOLOGY 
  AND GEOPHYSICS, UNIVERSITY OF NEW ORLEANS; RAYMOND BUTLER, 
EXECUTIVE DIRECTOR, GULF INTRACOASTAL CANAL ASSOCIATION; ROY K. 
  DOKKA, FRUEHAN ENDOWED PROFESSOR OF ENGINEERING, DIRECTOR, 
       LOUISIANA SPATIAL REFERENCE CENTER AND CENTER FOR 
 GEOINFORMATICS, LOUISIANA STATE UNIVERSITY; JAN R. HOOGLAND, 
     DIRECTOR, RIJKSWATERSTAAT, ACCOMPANIED BY: DALE MORRIS

    Mr. Dalrymple. Mr. Chairman and members of the 
Subcommittee, my name is Robert Dalrymple, and I am pleased to 
appear on behalf of the American Society of Civil Engineers as 
you examine hurricane and flood protection and water resource 
planning for a rebuilt Gulf Coast in the wake of Hurricane 
Katrina.
    We commend you on taking the time to study the integration 
of hurricane, storm and flood protection, navigation and 
coastal ecosystem restoration while meeting local objectives 
for rebuilding New Orleans and the Gulf Coast. My career as an 
educator and engineer has been dedicated to coastal 
engineering, which is a field that deals with the complexities 
of engineering at the coastline, where waves and storms create 
large forces on structures, high water levels and coastal 
erosion.
    The driving focus of coastal engineering research has been 
to develop an ability to predict the behavior of the shoreline 
over a short time scale, such as the duration of a major storm, 
to longer time scales, such as the response of a shoreline over 
100 years to human intervention. We have come a long way toward 
that goal, but much work remains to be done.
    The ASCE's paramount concern is for the safety, health and 
welfare of the public. We believe there is a tremendous 
opportunity to learn from the tragedy of New Orleans to prevent 
future loss of life and property.
    After the storm, the American Society of Civil Engineers 
assembled several teams of experts to examine the failures of 
the New Orleans levee system, as well as to examine the 
shoreline damage along the Alabama and Mississippi coastline. I 
led a team of four coastal engineering experts, including two 
visitors from the Netherlands and Japan to look at the walls in 
New Orleans. Our New Orleans team of coastal engineers was 
joined by another ASCE team of geotechnical engineers and a 
team from the University of California at Berkeley. Our three 
teams were joined there by a team of U.S. Army Corps of 
Engineers from the Engineering Research and Development Center 
in Vicksburg, which provided considerable insight and logistic 
support.
    We gathered information about the failure of the levees, 
including that data that would be lost during the process of 
levee repair and the passage of time. I have some overhead 
information.
    The evidence that we looked for was evidence that was 
ephemeral, that would be lost in the process of levee repair, 
such evidence as high water lines, wave overtopping, and the 
evidence of foundation movement and failure. Based on the 
evidence that we gathered during that week, our joint teams 
knows in principle how the levees in New Orleans failed. The 
exact details, however, await additional analysis.
    And as noted by the first panel, there is an interagency 
performance evaluation task force with NRC and the ASCE being 
put together.
    In terms of development along the Nation's shoreline, for 
either commercial or residential purposes, it should be done in 
a sound manner. For residences, simple measures such as 
elevating buildings along the predicted coastal storm surges 
and adding hurricane clips to roofs are measures that have 
reduced the loss of life and property in hurricane-prone 
regions. Beach nourishment has proven to be effective for many 
coastal communities.
    Since I do have the slides here, this is overtopping 
evidence on the industrial canal, just south of the big breach. 
You can see the barge that went through the wall. There were 
two breaches, one with the barge and one without. But you do 
see the trench at the foot of the wall. This is the 17th Street 
Canal, there is no evidence of overtopping here. I am standing 
in the breach area.
    This is evidence of soil translation at the 17th Street 
Canal. You can see that there is a channeling fence in the 
middle of the picture that has been moved about 30 feet 
laterally by the walls being pushed landward.
    Levees can provide protection from high water lines due to 
storm surge. However, they need to be designed to resist 
overtopping and to be well anchored. Restricting development in 
fragile environmental areas is another important tool. These 
and other coastal management practices should be provided to 
prevent unsafe coastal construction and the losses of beaches 
and wetlands that protect the upland.
    We need to especially protect our Nation's wetlands, which 
are disappearing at an alarming rate. These vital natural 
areas, important for reducing the impact of storms by providing 
a buffer area, are also important biological assets.
    The Mississippi River levee system, constructed to contain 
the river from flooding surrounding areas, is one of the 
several reasons for the rapid loss of land on the Louisiana 
shoreline, as it stops the natural sedimentation that flooding 
brings. Other reasons include oil and gas activity in the 
coastal area, naturally occurring subsidence and the rise in 
sea level.
    The key to successfully restoring a sustainable ecosystem 
in the Louisiana coastal wetlands is to manage and use the 
natural forces that created the coastal area. We need to create 
and sustain wetlands and barrier islands by accumulating 
sediment and organic matter.
    Moreover, we need to establish integrated watershed 
planning for the lower Mississippi River and the Mississippi 
Delta as a basis for any flood protection or coastal 
restoration program. This would require the inclusion of 
navigation, flood protection, hurricane protection and 
ecosystem restoration as integral parts of any infrastructure 
planning.
    To better cope with natural disasters, we need to better 
understand them. Federal funding for research into hurricane 
waves and surge, tsunamis, coastal erosion and other costal 
natural disasters is very low, as documented in the 1999 
National Research Council report by the Marine Board. The 
Nation needs a sustained effort to improve the planning, 
design, construction, operation and maintenance of hurricane 
infrastructure systems that will mitigate the effects of 
natural hazards.
    The Nation's flood protection infrastructure, as well as 
its inland waterway system, is in the same precarious state as 
much of the other civil infrastructure of the Country. The 
American Society of Civil Engineers, with its report card for 
America's infrastructure, has graded our navigable waterways a 
D minus this year, down from a D plus in the year 2001. Dams 
were given a grade of D. We need as a Nation to attend to these 
essential, life-protecting structures.
    The ASCE believes that Congress should enact a national 
levee inspection and safety program that should be modeled on 
the successful national dam safety program to ensure that our 
levees are safe and effective.
    Thank you, Mr. Chairman and members of the Subcommittee. 
That concludes my statement.
    Mr. Boustany. Thank you, Dr. Dalrymple.
    Next we will go to Dr. Reed.
    Ms. Reed. Good morning, Mr. Chairman, members of the 
Committee. Thank you for the opportunity to be here today.
    I am here today to discuss with you the interactions among 
ecosystem restoration, flood protection and other future water 
resources planning efforts for the area recently devastated by 
Hurricanes Katrina and Rita. Now more than ever, we need those 
things to work together.
    I am going to emphasize just three points here this 
morning. First, I want to address how ecosystem restoration can 
assist with flood protection. Ecosystem restoration projects, 
particularly those in the future, that are placed and designed 
specifically to provide flood protection to adjacent 
communities, will only be effective in achieving that if they 
are robust and themselves stand up to storm damage.
    Observations of coastal marshes east of New Orleans post-
Hurricane Katrina show thankfully that most of the coastal 
wetlands came through unscathed and likely received an 
important input of sediment which will help keep them up above 
sea level rise in subsidence. I will come back to that issue in 
a moment.
    However, marshes east of the city with more organic soils 
were physically torn apart by the storm surge and the waves. 
Importantly, though, some marshes close to the city which have 
been receiving river sediment as part of an existing 
restoration project remained intact, and six weeks after the 
storm, new growth of vegetation is already taking place.
    Healing some of the damaged marshes will likely occur 
quickly if fresh water and nutrients from the river can be 
gotten into those areas. But firm marsh soils are going to be 
essential if these or any other restored marshes are going to 
withstand future storms and continue to contribute to flood 
protection.
    Secondly, I want to address the effect of some flood 
protection measures on the coastal ecosystem. The barrier plan 
for Lake Pontchartrain and some other flood protection measures 
currently being considered for south Louisiana will change the 
dynamics of the coastal ecosystem by altering water flows, even 
when there is no storm threat.
    When the barrier plan was considered several years ago, it 
seems that salinity was the major concern. Some now suggest 
that that concern could be addressed by designing the structure 
appropriately to take that factor into account.
    However, our 21st century understanding of how costal 
ecosystems work demands that we maintain the dynamic exchanges 
between the lakes and the bays and the marshes. This concept 
was fundamental to the widely accepted Coast 2050 plan for 
Louisiana restoration. To keep an ecosystem inside a barrier 
viable, let alone healthy, we must not limit these exchanges 
except during storms.
    The planned Morganza to the Gulf hurricane protection 
project in Louisiana applies this principles. Future flood 
protection works that encompass coastal wetlands within their 
boundary can and should be similarly synergistic with the 
environment.
    Lastly, I would like to address the issue of sustainability 
in the face of subsidence and sea level rise. The coastal 
wetlands of the northern Gulf Coast can survive sea level rise 
if we give them a fighting chance. Recent studies have measured 
high subsidence rates along roads and highways in the region. 
But thus far, these measurements have not been made in the 
coastal marshes. Coastal marshes are very resilient to rising 
sea level. They have the ability to build up soils in ways that 
roads and highways and levee crests that we build simply don't. 
That so many marshes still remain in coastal Louisiana despite 
these high rates of subsidence that we have measured in the 
late 20th century, that in itself is testament to their ability 
to survive, if conditions are favorable, if we give them a 
fighting chance.
    Predictions of subsidence and sea level rise must be a 
really important part of our planning for restoration, for 
flood protection and for community rebuilding. But in and of 
themselves they do not mean that we should abandon this highly 
productive coastal ecosystem.
    That concludes my remarks for the moment, Mr. Chairman. 
Thank you.
    Mr. Boustany. Thank you very much, Dr. Reed.
    Mr. Butler, you are now recognized.
    Mr. Butler. Thank you, sir.
    Good afternoon. My name is Raymond Butler. I am the 
Executive Director of the Gulf Intracoastal Canal Association 
in Houston, Texas.
    Mr. Chairman, members of the Committee, I would like to 
thank you for giving the Gulf Intracoastal Canal Association, 
GICA, this opportunity to provide our input into the vital 
questions of how Gulf Coast inland waters navigation might be 
affected by future hurricane protection options and how it has 
been affected by the recent storms.
    Before I answer those questions, I would like to tell you a 
little bit more about our association. In August, GICA 
celebrated its 100th anniversary. Our 200 plus members are 
virtually a who's who of barge and towboat operators, cargo 
carriers, shippers, port authorities and waterways service 
organizations from Florida to Texas. Because of the local, 
regional and national significance of the canal, GICA continues 
to exist as an organization advocating for proper stewardship 
of this vital resource.
    As I am confident the Committee is already aware, barges 
move cargo more efficiently, cleanly, cheaply than any other 
competing surface mode of transportation. To give an example, a 
single tow pushing two tank barges, which is very common on the 
Gulf Intracoastal Waterway these days, can move 60,000 barrels 
of product. That same product would require 80 railroad tank 
cars or 300 large tank trucks to move on our highways and rail 
systems.
    The products of the refineries, chemical plants along the 
Gulf Coast, grain, steel, coal, cement, agra-goods and other 
commodities that move by barge are vital to every American. If 
you eat, drive a car, turn on a light or use products 
containing plastic, I would contend you depend on the efficient 
operation of this waterway. The manufacturing facilities along 
the canal provide vital, high-paying jobs that sustain the Gulf 
Coast economy.
    Overall, the GIWW fared very well in this last series of 
hurricanes that have battered the Gulf Coast. However, there 
are reasons for concern, lessons to be learned and actions that 
we need to take to ensure the future reliability of the 
waterways.
    I have a vessel operations background. I was privileged to 
have worked with the Coast Guard command center and the Corps 
of Engineers very intimately in carrying out a coordinated, 
joint industry agency response to Hurricanes Ivan, Dennis, 
Katrina and Rita. I would like to share some of what I learned 
during some of those experiences with you today.
    First, we must continue and strengthen the partnership 
between industry, the Corps of Engineers and the Coast Guard, 
which in my view was very critical to the rapid restoration of 
navigation along the entire GIWW, within six days after 
Hurricane Katrina and within four days after Rita. Secondly, we 
must focus on the critical importance of communications, 
recognizing the need to co-locate key industry and Government 
response personnel to the same location and provide those key 
personnel with a common operating picture of what is actually 
happening during our preparation and restoration efforts on a 
real-time basis.
    Third, we must identify and pursue integrated response 
solutions that address the needs of navigation, flood control 
and the environment and allow us to simultaneously address all 
of these needs while assuring that the vital goods essential to 
our Nation's economy keep moving on the waterways.
    Fourth, we must pursue wise planning mechanisms that avoid, 
wherever possible, placing residential and retail development 
in conflict with crucial navigation systems, while at the same 
time being sensitive to our environmental stewardship 
responsibilities.
    Finally, we must stop under-investing in our Nation's 
inland waterway system and ensure on both the capital and 
operations and maintenance sides of the equation that this 
Nation will continue to have a world class inland waterway 
system.
    Mr. Chairman, although I am not an expert on structural 
protection from hurricanes, I can tell you that we need to 
examine the damage our locks suffered as a result of the storms 
and ensure we protect these vital structures as best we can. We 
need adequate spare parts, ready to deliver and fix whatever 
damage occurs right away.
    I can tell you that efficient, low cost inland waterway 
transportation is vital to serving American consumers and 
keeping our coastal industries competitive in a global 
marketplace. Where structural remedies are required to assist 
in flood damage reduction, they must not impair the dependable, 
reliable and efficient navigation on which we all depend.
    In closing, I would like to say that after spending many 
days with our Coast Guard and Corps of Engineers folks on a 
very personal level during our response to these devastating 
storms, I am in awe of the job that these folks did. In my 
view, one of the most important parts of that response was the 
spirit of partnership with industry that both of these agencies 
embraced during that process.
    Thank you very much for the opportunity to be here and 
testify today.
    Mr. Boustany. We thank you, Mr. Butler.
    We will now recognize Dr. Dokka.
    Mr. Dokka. Thank you, Mr. Chairman. I would like to thank 
the Committee for inviting me today, and I hope that my 
testimony will be of value to you.
    You are looking for answers today, permit me to help you to 
try to understand a little bit better what the problem is. 
Ladies and gentlemen, a silent disaster of massive proportions 
is slowly drowning the Gulf Coast and making communities and 
critical infrastructure ever more vulnerable to hurricanes. 
Today, waters of the Gulf of Mexico are inundating the land, 
due to the slow rise of the world's oceans and more 
importantly, due to the rapid sinking of the land.
    This sinking, or subsidence, is the downward movement of 
the land relative to a point of reference. The entire coast and 
adjoining areas from Mobile to the Mexican border is sinking. 
Louisiana's coast has sunk from between two and four feet since 
1950. Subsidence occurs largely by natural processes, augmented 
locally by human activities. The natural processes are 
unrelenting and unstoppable, in contrast to human-induced 
components.
    My written testimony outlines the causes, and I will use 
the remaining time to focus instead on how subsidence will 
directly impact immediate reconstruction efforts and future 
mitigation planning along the Gulf Coast.
    Understanding subsidence today requires accurate 
measurement of what is happening today. Because sinking will 
continue into the future, it is critical for planning. My 
comments draw heavily from a report written Mr. Kurt Shinkle 
and myself and issued in 2004 by the National Oceanic and 
Atmospheric Administration of the Department of Commerce. This 
report, NOAA Technical Report 50, documents land movements that 
have occurred over the past 50 years, using the most precise 
and reliable data available.
    Here are a few of the practical implications of modern 
subsidence. The vertical control system surveyors use to 
determine elevation, as well as the plan and build 
infrastructure, has been corrupted by subsidence. There are 
only 86 benchmarks in the entire State of Louisiana that are 
reliable today. A week ago it was zero. Subsidence will render 
most of these reference points useless within a year or two.
    Mississippi and south Texas have similar problems. Bad 
vertical control has bad consequences. The Corps of Engineers 
cannot at present build new or augment existing hurricane 
protection levees to proper elevations. The levees are as much 
as two feet lower than they were designed in some areas of 
south Louisiana. Subsidence has moved them over time.
    NOAA National Hurricane Center cannot at present produce 
accurate storm surge models of the Gulf Coast, because land 
elevation inputs are incorrect. FEMA cannot make accurate flood 
insurance rate maps. Areas mapped as outside the flood zone may 
actually be in the flood zone.
    State and Federal highways are being built below their 
desired design heights. They may not be able to serve as escape 
routes during storms and will likely degrade more quickly due 
to the elements. Consumers cannot get accurate elevations on 
home slabs for insurance purposes.
    So what is the future? Well, because subsidence is 
unrelenting, it means increasing vulnerability to storm surge 
over time. If hurricanes of the magnitude of Katrina and Rita 
return 25 years from now, the area of effect and destruction 
will be much greater unless we prepare.
    Much of coastal Louisiana sits between three feet and sea 
level, and by the end of this century, most areas will be at or 
below sea level. Modern subsidence has occurred at 
substantially higher rates and over larger areas than supposed 
by Federal and State agencies tasked to study this problem. 
Subsidence is observed far beyond the wetlands of the 
Mississippi River delta. In your district, sir, your area sunk 
something like five feet in the last several years.
    The data do not support the widely held belief that the 
disease killing the coast can be addressed by just the 
wetlands-centric solutions. The real enemy is the Gulf of 
Mexico. Current plans to save the coast will likely improve the 
ecology, a laudable goal that stands on its own merits. But 
these efforts cannot build elevation in New Orleans, Houma or 
any places where people live and work in south Louisiana. 
Without elevation, our only hope is through the enhancement of 
our levee defenses. The reality is that without them, we must 
surrender the coast and retreat.
    Let me close by focusing on two action items. The first 
deals with the design of a comprehensive levee system that can 
afford adequate protection today and over the design life of 
this system. To be viable, the design must account for our 
changing landscape, especially future subsidence. Furthermore, 
new protection walls will be needed to be built in southwest 
Louisiana, along the coast west of Morgan City to the Sabine 
River. There is none today.
    Similarly effective designs need to be developed along the 
eastern edge of Lake Pontchartrain for storm surges that might 
arise from the north.
    The second critical step is the rapid re-establishment of 
accurate vertical control in the region. If engineers say they 
need to built a category 5 flood protection wall to plus 23 
feet, then the builders will have to be able to figure out 
where plus 20 feet is in the field. That is not possible today.
    Congress needs to support acceleration of the national 
height modernization program currently underway by NOAA 
National Geodetic Survey. Builders and planners need accurate 
elevations now if we are to prevent future massive repeat 
mitigation.
    Thank you for your attention. I will be happy to answer any 
questions afterwards.
    Mr. Boustany. Thank you very much, Dr. Dokka.
    Mr. Hoogland, you are welcome to give your testimony now.
    Mr. Hoogland. Mr. Chairman, distinguished members of the 
Committee, ladies and gentlemen. It is a great honor for me to 
be here to testify on the subject of flood protection in our 
country.
    Let me tell you something about myself. I spent my entre 
career within the Netherlands Ministry of Public Works and 
Water Management, in a department called Rijkswaterstaat. That 
is comparable with the U.S. Army Corps of Engineers.
    From 1981 until 1997, I was in charge of policy making of 
flood protection in my country. Mr. Chairman, I have submitted 
the formal written testimony called Flood Defense in the 
Netherlands: Lessons Learned from Dutch History, and I 
respectfully request that this be inserted in the records of 
your Committee.
    First of all, I need to point out that all the water 
situation in the Netherlands is quite different from that in 
the United States. Almost 60 percent of our country is 
threatened by water, either by storm surges and/or by floods 
due to high discharges of rivers. Cities, such as Rotterdam, 
our main harbor and the world's second largest port, and 
Amsterdam, our capital, and our largest international airport 
are below sea level. We earn 70 percent of our gross national 
product and attract huge amounts of foreign investment in these 
flood-prone areas.
    On top of that, millions of people live below sea level. 
Yet they feel safe and secure.
    Hundreds of years ago, we established dedicated 
organizations whose sole purpose was to defend the country 
against flooding, from sea and rivers. On a local or county 
level, these are called water boards. And on a national level 
or federal level, it is my organization, Rijkswaterstaat.
    My main message to your Committee, Mr. Chairman, is that we 
have learned and continue to learn from history, especially the 
history of flood disasters. Each flood disaster in the 
Netherlands, from the 13th century onward, has brought us new 
lessons to be learned for keeping our country habitable, 
liveable and attractive to citizens and business.
    After the floods of 1953, in which nearly 2,000 people 
died, we designed our Deltaplan, primarily meant for the 
coastal areas. In this Deltaplan, we developed for the first 
time a comprehensive system of standards for designing dikes 
and barriers for the whole country. These government-endorsed 
standards assure the quality of our water defense system. All 
our dikes we rebuilt accordingly and the total length of our 
coastline was shortened by more than 700 kilometers as a result 
of closing estuaries with dams or storm surge barriers.
    It took 50 years from idea to completion. In the interim, 
we incorporated new insights about morphological as well as 
ecological processes. For these reasons, the two last barriers 
constructed in the end of the Deltaplan are partly open and 
moveable: the Easternscheldt Barrier, because of the fishery, 
sedimentation and the environment, and the Stormsurge Barrier 
in the Rotterdam Waterway because of shipping and 
sedimentation. These barriers are closed only in case of storm 
surges.
    In the Netherlands, as in your country, cost is a factor. 
In total, over those 50 years, we invested about $15 billion in 
our Deltaplan in today's cost. Not an inconsequential cost, 
surely, but also a cost that is penny to the dollar compared to 
costs that we would have incurred had we not made that 
financial commitment.
    Mr. Chairman, the Netherlands is threatened not only by sea 
but also by three of Europe's major rivers that empty into the 
North Sea via my country. In 1993 and 1995, the extreme 
discharges of the major rivers nearly overtopped our river 
dikes. Two hundred and fifty-thousand people and their 
livestock were evacuated. That event made clear again that we 
could not postpone upgrading the river dikes.
    We then have learned that the water defense system includes 
not only technical solutions, it is not just building and 
maintaining dikes. Disasters can always happen, and therefore 
you need evacuation plans.
    We also learned that it is always important to think about 
zoning. That is to say, legislating the areas to be reserved 
for urban development and for water. Our government designed 
this new policy in a document called More Room For Water, in 
which our spatial planning act, or land use act plays a pivotal 
role.
    Now, if you were to ask me, what are the most important 
elements of our protection policy, I would say the following: 
know-how and organizational structure; standards and 
legislation; priorities and budget; and prevention and zoning. 
As to know-how, it clearly include technology, morphological 
and ecological knowledge, statistics and predictions. New 
developments, such as sea level risk and climate change, are 
important components.
    To ensure that the development of this knowledge stays on 
the highest level, we have a department such as mine working at 
the national level as a respected partner in the international 
exchange of knowledge. My department, Rijkswaterstaat, by the 
way, has been around since 1798. Since yesterday, I found out 
that your Army Corps is just three years older.
    [Laughter.]
    Mr. Hoogland. On a local level, we have for 800 years one 
issue organizations called water boards. Their only task is 
water management, which includes flood protection. Water boards 
are public entities with their own election and tax system.
    Now I come to standards and legislation. Our standards are 
accepted risk levels related to the design criteria of our 
dikes. Those standards are laid down in the flood defense act. 
For the economically most important and densely populated part 
of the country, we design our dikes and dunes to be sturdy 
enough to withstand a storm situation with a probability of 1 
to 10,000 a year. That means that a Dutchman, if he should live 
100 years, has a chance of 1 percent to witness such an event. 
For our parliament, these odds became the acceptable standards. 
For the less important coastal areas, we calculate the 
probability of 1 to 4,000, and along the main rivers, 1 to 
1,250.
    Very essential is that every five years, the entire water 
defense system is assessed for compliance by local water 
boards. A summary of these assessments is submitted to the 
national parliament. In order to be able to make these 
assessments, it is essential to know what the hydraulic 
specifications belonging to the politically accepted standards 
are. In my department, Rijkswaterstaat publishes each five 
years, to these hydraulic specifications, in which we implement 
the latest knowledge of statistics, failure mechanisms of 
dikes, sea level rise and climate change.
    A few words about priorities and budget. Since 1953, 
financing of renovating the dikes has been a national priority. 
All funds for rebuilding are allocated by the central 
government. Maintenance, financially and operationally, is 
totally controlled by the water boards, who in turn, tax the 
local population. Since the water boards have no other 
responsibility than water, other priorities never go to the 
detriment of the water defense system.
    Finally, I get to the matter of prevention and zoning. The 
notion of zoning is fairly new in our approach. We need to 
answer questions such as whether we reserve space for urban 
development or whether we dedicate space exclusively for water. 
It is a tough issue, but an issue we cannot ignore.
    Last but not least, it is important to realize that total 
safety does not exist, and therefore, it is essential to be 
prepared, for instance, by having evacuation plans. After all, 
members of the Committee, disasters do happen.
    Thank you, Mr. Chairman.
    Mr. Boustany. Thank you for your perspective, Mr. Hoogland. 
We really appreciate it.
    A quick question for you. In planning flood protection 
projects in the United States, we do economic analyses to 
determine the benefits of protecting infrastructure, and we 
compare that and look at the cost and do these cost benefit 
analyses. Do you do the same in your country?
    Mr. Hoogland. In 1953, we had a delta committee which, a 
part of the delta committee was a cost benefit calculation. But 
we didn't do it afterwards in the new time, but it is a part of 
the policy in the Netherlands. But it is not the only part. 
Because the delta committee said the economic value you can 
calculate, but the cost of human life, it is incalculable. I am 
sorry for my language. Incalculable.
    Mr. Boustany. Your English is better than my Dutch.
    [Laughter.]
    Mr. Boustany. Thank you for your answer.
    One other question. The problem of subsidence that we have 
talked about here today, is that significant in your area? Do 
you see it there? Dr. Dokka mentioned benchmarks. Is coming up 
with benchmarks and a reference point, is it a problem or has 
it been a pretty consistent solution for you?
    Mr. Hoogland. We have in the Netherlands an enormous 
subsidence of the land, especially in the western part of the 
country. When you look over the last 1,000 years, then we have 
a subsidence of 5 meters. From that five meters, only one meter 
is sea level risk and four meters is soil subsidence.
    So it is very important in our country to calculate and to 
measure. We have a system, geodetical system of measuring 
every, I think, three or five years the whole system, and to 
calculate the influence of that subsidence. We use fairly deep 
points to sterilize our level of measurements. But we have, I 
believe, 20 meters under the normal soil level, we have a layer 
that is permanent, without subsidence.
    Mr. Boustany. Thank you for that.
    Dr. Dokka, you paint a very grim picture of what we face. 
Is it worthy of investment? Can New Orleans be salvaged? Should 
we move forward.
    Mr. Dokka. Absolutely. You can run the numbers for how much 
Louisiana's coast is worth. The cost benefit ratio is 
tremendous, from what I understand, from what the coast is 
worth and what it would cost to fix it.
    It is also just too important not to be fixed. If people 
like $3 a gallon gasoline now, they are going to love the 
future if we do nothing.
    But another important point is that this does not just 
affect the Louisiana coast. It affects the entire Gulf Coast 
and the folks in Texas have issues as well. But they are not 
quite as far along in discovering it.
    Mr. Boustany. How do we plan for subsidence? I am not an 
engineer, but I would be interested in hearing your insights on 
that.
    Mr. Dokka. Well, if I could predict things, I would be 
buying lottery tickets, frankly. But I think our best guess, 
our best way of making intelligent guesses, is to look at the 
most recent past and then try to project that into the future. 
If we want to understand how the entire coast works, you have 
to look at thousands of years of history. However, for trying 
to understand these problems right now, trying to make sure 
that our people are safe for the next 50 years, I think it 
makes sense to go back and look at the last 50 years.
    However, predicting, one thing that we can't predict, how 
are people going to react to this. There are things we can do. 
The Dutch obviously live very well below sea level. People in 
New Orleans have done that as well. I think there are 
solutions, it is just a matter of beginning to understand what 
the problem actually is.
    Mr. Boustany. And the problem of reference points in 
Louisiana, it is a real problem. That is what I gather from 
your testimony.
    Mr. Dokka. The earth is dynamic. We have ways of fixing 
that. We have right now half of our plan to come up with a 
high-tech solution, essentially using a global positioning 
system, is halfway completed. The Corps is using these data 
right now to try to figure out exactly how to remedy the 
situation in New Orleans.
    Mr. Boustany. Thank you, Dr. Dokka.
    At this time I am going to defer to the Ranking Member, Ms. 
Johnson, to ask questions.
    Ms. Johnson. Thank you very much, Mr. Chairman. I don't 
have any questions. I will offer an apology to this panel for 
being out most of your testimony. I was listening part of the 
time, I was trying to solve a district problem with a visitor 
back there.
    I thank you very much coming to spend your time, and I know 
that we will probably be in touch again before this is all 
over. Thanks.
    Mr. Boustany. I am pleased to recognize Mr. Gilchrest for 
five minutes.
    Mr. Gilchrest. Thank you, Mr. Boustany.
    I apologize, too, I was in a briefing about Iraq for the 
last hour or so. Fascinating, innovative perspectives on that 
situation.
    But I wanted to, you know, we come in here and I didn't 
listen to you speak, I really apologize. But we have your 
testimony and I will take a look at it over the next couple of 
days.
    I wanted to ask, first of all, I want to welcome Dr. 
Dalrymple, a fellow Marylander. Welcome to Washington.
    Mr. Dalrymple. Thank you, sir.
    Mr. Gilchrest. I wanted to ask Mr. Hoogland, you probably 
stated this already, but do you see the situation in the 
Netherlands similar to the situation in Louisiana and the Gulf 
of Mexico?
    Mr. Hoogland. There is some similarity. But I think there 
is something, there are very big differences, too. We don't 
know hurricanes. We have floods from storm surges, and a storm 
surge is quite different from a hurricane. We have river 
floods, you have river floods as well.
    But living below sea level and being protected by dikes, 
you call them levees, that is similar to our situation. So 
there are similarities, but there are big differences, too.
    Mr. Gilchrest. The New York Times science section, maybe a 
month ago or so now, two months probably, had a fascinating 
article on your technology to keep Holland dry. Do you see 
similar technologies appropriate for New Orleans? I am not sure 
where you would put that. I mean, some of your technology would 
be appropriate for coastal Louisiana or New Orleans, or is the 
situation so different that some of those innovative 
technological pumps that you use would be appropriate?
    Mr. Hoogland. I think so. I think there are possibilities. 
But the most important thing about what I tried to tell today 
was the political commitment of the system. Political 
commitment to the standards is essential in the Dutch system. 
Political commitment for the standards, political commitment 
for, we call it structural funding of budget and political 
commitment for assessments for compliance to the standards. 
That is essential in the political system in the Netherlands.
    The next step, when it has been done, the next step is a 
step for technicians.
    Mr. Gilchrest. What was the next step?
    Mr. Hoogland. When you have political commitment for the 
standards, then technicians can transform those standards in 
several solutions. I heard this morning General Strock telling 
about the several solutions they have, they can present with 
their cost benefit effects, and with all the other effects.
    But first of all, it was my message, there has to be 
political agreement for the standards you want to guarantee to 
your citizens. That is what we have done in the Netherlands. 
That is essential.
    Mr. Gilchrest. My time is almost expired, and I wanted to 
get in another question. But thank you, that is well 
appreciated. It has an impact on our thinking.
    Dr. Dokka, given all the proposals, whether it is 2050 or 
LSA or just the myriad of CWPRA programs that have been 
happening there that have apparently been pretty successful, do 
you see the policy which seems to me to be pretty urgent, 
because you could get another Wilma, Katrina, Rita, whatever, 
next season, and whatever you have done would be undone.
    Can you tell us the process, the system that you would 
employ to restore coastal Louisiana in all the myriad of things 
that have been discussed here, to do it in a way that would be 
timely? We have heard you have to have the benefit to cost 
analysis, you have to have all these studies done and it is 
going to take five years, ten years, twenty years or whatever. 
Is the CWPRA model appropriate for us to fund larger sums of 
money to get some of these projects underway faster?
    Mr. Dokka. I am not an expert on these particular programs 
other than to say than, let's say, CWPRA, for instance, these 
are directed at the wetlands. But I think what I am saying here 
is that what is happening in the coast is happening everywhere. 
It is not just the wetlands. Most folks in Louisiana, contrary 
to popular belief, we do not live in the wetlands. We actually 
live on high ground.
    So what we need to integrate into the dialogue at this 
particular point are ways that we can protect our people to the 
fact that the land is subsiding, the world's oceans are rising. 
They may rise much more quickly into the future. That is one of 
the difficult things about prediction.
    But I think what needs to be done is, we need to add that 
additional component into that and then, as best we can, 
integrate all of these things together.
    Mr. Gilchrest. Could I have just one more question?
    Mr. Boustany. I was going to say, Mr. Gilchrest, I'm 
feeling generous with time, knowing your interest in all this. 
So by all means.
    Mr. Gilchrest. I just want to ask, when we hear, and then 
subsequent to that, when we say we can protect people against a 
category 5 hurricane, and we have heard that in a number of 
different places from a number of different people, and 
somebody just said here, and I think it might have been you, 
Dr. Dokka, this is a very dynamic ecological system.
    How do you protect, and a category 5 hurricane I guess is 
down there right now. Can you protect lower Louisiana and New 
Orleans from a category 5 hurricane?
    Mr. Dokka. The short answer is, I think you can. I think 
the question is, can you afford it. The same issues, in the 
United States, if you go through and look at most of the major 
cities, people live in risk. Either you are living next to an 
active volcano that is going to blow up in our lifetimes, or 
there is going to be a major earthquake in Los Angeles, San 
Francisco, Seattle. I can go down the list. These are risky 
places to live. However, this is where we live.
    And we assume the risk, and we need to understand what that 
risk is. And engineering, the Corps of Engineers, have the 
tools to do this. We cannot, as the member indicated before, we 
cannot plan for the unexpected.
    Mr. Gilchrest. I think what I am trying to get at is, the 
Nation needs to be convinced that all of us should share in the 
risk of those folks who choose to live in coastal Louisiana. It 
is the Nation. Everybody is going to give money to the Red 
Cross. You have everybody that will go down under emergencies 
and save lives. There is no question that that type of 
compassion is out there.
    The question, though, is, and I hear it in my district, and 
I hear it from other members in their districts, through town 
meetings and just meeting people, and that is why I asked the 
question about a category 5 hurricane. The Nation, I think, to 
some extent, needs to have some sense of certainty that the 
money that we have put in over the next couple of years and the 
money that it will take to sustain those areas, not just 
coastal Louisiana or Mississippi, my coastal district as well, 
North Carolina, Florida, the Nation needs to have some sense, 
because right now they are a little unsettled that we can do 
this in such a way that you can protect lives and property, it 
is sustainable and it is all reasonably affordable.
    Mr. Dokka. From the perspective of a scientist or engineer, 
we have the capabilities of doing these things. However, 
really, I think perhaps maybe where you would really like to go 
on that question is, what we have been doing up to this point 
has worked very well, to a point. We are discovering more and 
more about how this world works, and we are going to have to 
then step up, we are going to have to get better, we are going 
to have to understand the earth a lot better before we are 
going to be able to make the kind of certainty, you are asking 
me about certainty.
    I think we can do this. It is just that we have to do 
things smarter.
    Mr. Gilchrest. Thank you.
    Mr. Boustany. Thank you. I have a few more questions before 
we conclude the hearing.
    First of all, Dr. Dalrymple, I was kind of intrigued when I 
saw the slides that you showed. In very close proximity to the 
levees were trees. Does this pose a risk to the levees, 
particularly those which are earthen?
    Mr. Dalrymple. I think they can. I don't know that it was a 
problem there. The trees are fairly well back from the levees. 
But there are indeed trees in peoples' back yards and so forth. 
I think the problem is if you get roots growing through the 
levees, it poses a problem. But I think this is something that 
they look for.
    Mr. Boustany. Thank you. I know you mentioned engineering 
constraints, especially with regard to the prediction of 
subsidence. Obviously, my earlier questions were kind of 
pointed in that direction, and trying to predict it and so 
forth. It seems to me to be a very challenging problem from an 
engineering standpoint.
    Mr. Dalrymple. I believe it is. The New Orleans district 
does in fact repair the levees on a routine basis, that is, add 
more elevation to the levees as they subside.
    Mr. Boustany. Does the elevation, as you add more 
elevation, you are adding weight, and I guess it is a 
calculation problem to sort of maintain some sort of 
equilibrium?
    Mr. Dalrymple. Right.
    Mr. Boustany. Dr. Reed, your comments about the dynamic 
nature of our wetlands and the interaction with storms and so 
forth was interesting. Having lived down in southwest 
Louisiana, I certainly have seen it directly and experienced 
that sort of dynamic state.
    Can you comment on the salt intrusion and what effect it 
has on wetlands after a major storm surge like this? I 
certainly saw devastated farm land and marsh, it looked like it 
had been burned over by the salt. What is the long lasting 
effect with replenishing a marsh after this type of event?
    Ms. Reed. That is a very good question. When we look at 
these marshes immediately after the storm, they look brown, 
they look dead. We found a number of experimental studies, this 
is the kind of thing that scientists can look at in 
laboratories where you take plants in, you flood them as if 
there would be a storm and they return to normal conditions and 
see what happens.
    The good news is that much of that fresh vegetation in the 
fresh marsh areas, as long as the storm surge drains away 
fairly quickly and doesn't stay there for a long time, and as 
long as there is a return to fairly normal hydrologic 
conditions, the salinity goes back the way it was, perhaps 
there is some rainfall and the winter season, as we might 
normally have. Then many of those plants will come back during 
the spring. So experimental studies really show that, and I 
think we start to see that on the ground, too.
    The problem comes, and this may indeed be more of a problem 
in southwestern Louisiana, where we had hydrologic barriers 
across the landscape, for one reason or another. Sometimes they 
are roads or sometimes they are duck ponds, frankly. The water 
stays in there longer, a bit like the City of New Orleans. It 
just doesn't drain out when there is a levee around very 
effectively. That saltwater, particularly in your district 
where it is very close to the Gulf of Mexico and you get very 
high salinity waters coming in, if that water stays there too 
long, then we could have a problem.
    The thing is to return it to normal hydrology as quickly as 
possible. And we have to think about what we want those areas 
to be and really whether or not having fresh marsh or the 
expectation of fresh marsh very close to the coast as we have 
there is viable in the long term. Or we can plan for systems to 
allow us to get that water out quicker, and then the marsh will 
stand a good chance.
    Mr. Boustany. Thank you. Can our coastal marsh erosion ever 
be reversed, or are we going to be content with just slowing 
down this process?
    Ms. Reed. That is a very good question. I was part of the 
Coast 2050 team when we sat down essentially with a blank sheet 
of paper and worked out what we would want to do for the coast. 
Even with the very ambitious plans laid out there, when we 
think about the state that our coast is in already, how 
degraded it is and how that degradation is expected to 
continue, even those very ambitious plans laid out in the 2050 
plan didn't really bring much back of what we had lost.
    As you know from the report, the idea was to kind of stem 
the tide, if you like. What will happen, however, is there will 
be different things in different areas. That kind of evaluation 
of how much you gain versus how much you lose, if you do it on 
the whole coast basis, then you can't get it back.
    But effectively when you do restoration, you don't do the 
same thing in every area, you don't apply the same tool in 
every area. So in some areas we really do stand a chance of 
growing marsh back. In other areas, it is really a matter of 
managing the system and trying to slow the loss as much as can, 
just because the process is different. And as it seems like you 
know, your district is one of those ares where actually 
bringing marsh back with natural processes is very difficult.
    However, we do have other approaches, and we can 
mechanically move sediment around in systems. So if we want to 
bring marshes back in southwestern Louisiana, then we just need 
a different kind of approach.
    Mr. Boustany. Do you have an estimate of what we have lost 
permanently, particularly in southeast Louisiana, in terms of 
barrier islands and also land mass? Or is it too soon to know 
what we are going to end up with?
    Ms. Reed. Well, it's really too soon to know. You have 
probably seen some of these comparisons of satellite imagery 
being in some of the media that have been produced. It is 
important to recognize firstly that some of the marshes can 
come back. As I noted in my remarks, some of the marshes close 
to the city are already growing back really very well, and many 
others were unscathed. So we have to wait for next growing 
season really to see what the situation in the marshes is.
    On the barrier islands, we know from previous storms, we 
know from Ivan, we know from Georges, we know from Andrew, that 
they always look worse immediately after the storm. Actually 
that sand recovery process is really very effective. It is 
limited by how much sand we have in the system. For barrier 
islands, going out there immediately with a dredge is not the 
best thing. Rather, you should wait and see how those natural 
healing processes proceed.
    So we can't tell yet, I'm afraid.
    Mr. Boustany. I am going to wrap up here, but one question, 
one line of inquiry to Mr. Butler. Can fresh water and sediment 
be drawn off the Mississippi River in order to provide for 
marsh restoration without impacting navigation? Do you have 
thoughts on that?
    Mr. Butler. Mr. Chairman, yes, I would tell you that first 
off, I am not a hydrologist. I know we have had a lot of 
discussion along those lines. I think it is something that is 
really worthwhile discussing, and it has a lot of real 
possibilities. I think we could probably do that and not impact 
navigation significantly.
    Mr. Boustany. I know with respect to the Gulf Intracoastal 
Waterway, we had a challenge with regard to the locks, you 
know, whether to keep them open or closed, facilitate drainage 
or create currents for navigation. It was an ongoing problem. 
We managed to solve it by coming up with a timetable, and you 
had mentioned something along those lines, so I appreciate your 
thoughts on that. Something we can perhaps further work on, as 
well.
    I want to thank all of you for your testimony. It has been 
very informative. The questions that we have asked you have 
answered very forthrightly and we really appreciate it. Thank 
you. We will conclude the hearing.
    [Whereupon, at 1:42 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T5916.001
    
    [GRAPHIC] [TIFF OMITTED] T5916.002
    
    [GRAPHIC] [TIFF OMITTED] T5916.003
    
    [GRAPHIC] [TIFF OMITTED] T5916.004
    
    [GRAPHIC] [TIFF OMITTED] T5916.005
    
    [GRAPHIC] [TIFF OMITTED] T5916.006
    
    [GRAPHIC] [TIFF OMITTED] T5916.007
    
    [GRAPHIC] [TIFF OMITTED] T5916.008
    
    [GRAPHIC] [TIFF OMITTED] T5916.009
    
    [GRAPHIC] [TIFF OMITTED] T5916.010
    
    [GRAPHIC] [TIFF OMITTED] T5916.011
    
    [GRAPHIC] [TIFF OMITTED] T5916.012
    
    [GRAPHIC] [TIFF OMITTED] T5916.013
    
    [GRAPHIC] [TIFF OMITTED] T5916.014
    
    [GRAPHIC] [TIFF OMITTED] T5916.015
    
    [GRAPHIC] [TIFF OMITTED] T5916.016
    
    [GRAPHIC] [TIFF OMITTED] T5916.017
    
    [GRAPHIC] [TIFF OMITTED] T5916.018
    
    [GRAPHIC] [TIFF OMITTED] T5916.019
    
    [GRAPHIC] [TIFF OMITTED] T5916.020
    
    [GRAPHIC] [TIFF OMITTED] T5916.021
    
    [GRAPHIC] [TIFF OMITTED] T5916.022
    
    [GRAPHIC] [TIFF OMITTED] T5916.023
    
    [GRAPHIC] [TIFF OMITTED] T5916.024
    
    [GRAPHIC] [TIFF OMITTED] T5916.025
    
    [GRAPHIC] [TIFF OMITTED] T5916.026
    
    [GRAPHIC] [TIFF OMITTED] T5916.027
    
    [GRAPHIC] [TIFF OMITTED] T5916.028
    
    [GRAPHIC] [TIFF OMITTED] T5916.029
    
    [GRAPHIC] [TIFF OMITTED] T5916.030
    
    [GRAPHIC] [TIFF OMITTED] T5916.031
    
    [GRAPHIC] [TIFF OMITTED] T5916.032
    
    [GRAPHIC] [TIFF OMITTED] T5916.033
    
    [GRAPHIC] [TIFF OMITTED] T5916.034
    
    [GRAPHIC] [TIFF OMITTED] T5916.035
    
    [GRAPHIC] [TIFF OMITTED] T5916.036
    
    [GRAPHIC] [TIFF OMITTED] T5916.037
    
    [GRAPHIC] [TIFF OMITTED] T5916.038
    
    [GRAPHIC] [TIFF OMITTED] T5916.039
    
    [GRAPHIC] [TIFF OMITTED] T5916.040
    
    [GRAPHIC] [TIFF OMITTED] T5916.041
    
    [GRAPHIC] [TIFF OMITTED] T5916.042
    
    [GRAPHIC] [TIFF OMITTED] T5916.043
    
    [GRAPHIC] [TIFF OMITTED] T5916.044
    
    [GRAPHIC] [TIFF OMITTED] T5916.045
    
    [GRAPHIC] [TIFF OMITTED] T5916.046
    
    [GRAPHIC] [TIFF OMITTED] T5916.047
    
    [GRAPHIC] [TIFF OMITTED] T5916.048
    
    [GRAPHIC] [TIFF OMITTED] T5916.049
    
    [GRAPHIC] [TIFF OMITTED] T5916.050
    
    [GRAPHIC] [TIFF OMITTED] T5916.051
    
    [GRAPHIC] [TIFF OMITTED] T5916.052
    
    [GRAPHIC] [TIFF OMITTED] T5916.053
    
    [GRAPHIC] [TIFF OMITTED] T5916.054
    
    [GRAPHIC] [TIFF OMITTED] T5916.055
    
    [GRAPHIC] [TIFF OMITTED] T5916.056
    
    [GRAPHIC] [TIFF OMITTED] T5916.057
    
    [GRAPHIC] [TIFF OMITTED] T5916.058
    
    [GRAPHIC] [TIFF OMITTED] T5916.059
    
    [GRAPHIC] [TIFF OMITTED] T5916.060
    
    [GRAPHIC] [TIFF OMITTED] T5916.061
    
    [GRAPHIC] [TIFF OMITTED] T5916.062
    
    [GRAPHIC] [TIFF OMITTED] T5916.063
    
    [GRAPHIC] [TIFF OMITTED] T5916.064
    
    [GRAPHIC] [TIFF OMITTED] T5916.065
    
    [GRAPHIC] [TIFF OMITTED] T5916.066
    
    [GRAPHIC] [TIFF OMITTED] T5916.067
    
    [GRAPHIC] [TIFF OMITTED] T5916.068
    
    [GRAPHIC] [TIFF OMITTED] T5916.069
    
    [GRAPHIC] [TIFF OMITTED] T5916.070
    
    [GRAPHIC] [TIFF OMITTED] T5916.071
    
    [GRAPHIC] [TIFF OMITTED] T5916.072
    
    [GRAPHIC] [TIFF OMITTED] T5916.073
    
    [GRAPHIC] [TIFF OMITTED] T5916.074
    
    [GRAPHIC] [TIFF OMITTED] T5916.075
    
    [GRAPHIC] [TIFF OMITTED] T5916.076
    
    [GRAPHIC] [TIFF OMITTED] T5916.077
    
    [GRAPHIC] [TIFF OMITTED] T5916.078
    
    [GRAPHIC] [TIFF OMITTED] T5916.079
    
    [GRAPHIC] [TIFF OMITTED] T5916.080
    
    [GRAPHIC] [TIFF OMITTED] T5916.081
    
    [GRAPHIC] [TIFF OMITTED] T5916.082
    
    [GRAPHIC] [TIFF OMITTED] T5916.083
    
    [GRAPHIC] [TIFF OMITTED] T5916.084
    
    [GRAPHIC] [TIFF OMITTED] T5916.085
    
    [GRAPHIC] [TIFF OMITTED] T5916.086
    
    [GRAPHIC] [TIFF OMITTED] T5916.087
    
    [GRAPHIC] [TIFF OMITTED] T5916.088
    
    [GRAPHIC] [TIFF OMITTED] T5916.089
    
    [GRAPHIC] [TIFF OMITTED] T5916.090
    
    [GRAPHIC] [TIFF OMITTED] T5916.091
    
    [GRAPHIC] [TIFF OMITTED] T5916.092
    
    [GRAPHIC] [TIFF OMITTED] T5916.093
    
    [GRAPHIC] [TIFF OMITTED] T5916.094
    
    [GRAPHIC] [TIFF OMITTED] T5916.095
    
    [GRAPHIC] [TIFF OMITTED] T5916.096
    
    [GRAPHIC] [TIFF OMITTED] T5916.097
    
    [GRAPHIC] [TIFF OMITTED] T5916.098
    
    [GRAPHIC] [TIFF OMITTED] T5916.099
    
    [GRAPHIC] [TIFF OMITTED] T5916.100
    
    [GRAPHIC] [TIFF OMITTED] T5916.101
    
    [GRAPHIC] [TIFF OMITTED] T5916.102
    
    [GRAPHIC] [TIFF OMITTED] T5916.103
    
    [GRAPHIC] [TIFF OMITTED] T5916.104
    
    [GRAPHIC] [TIFF OMITTED] T5916.105
    
    [GRAPHIC] [TIFF OMITTED] T5916.106
    
    [GRAPHIC] [TIFF OMITTED] T5916.107
    
    [GRAPHIC] [TIFF OMITTED] T5916.108
    
    [GRAPHIC] [TIFF OMITTED] T5916.109
    
    [GRAPHIC] [TIFF OMITTED] T5916.110
    
    [GRAPHIC] [TIFF OMITTED] T5916.111
    
    [GRAPHIC] [TIFF OMITTED] T5916.112
    
    [GRAPHIC] [TIFF OMITTED] T5916.113
    
    [GRAPHIC] [TIFF OMITTED] T5916.114
    
    [GRAPHIC] [TIFF OMITTED] T5916.115
    
    [GRAPHIC] [TIFF OMITTED] T5916.116
    
    [GRAPHIC] [TIFF OMITTED] T5916.117
    
    [GRAPHIC] [TIFF OMITTED] T5916.118
    
    [GRAPHIC] [TIFF OMITTED] T5916.119
    
    [GRAPHIC] [TIFF OMITTED] T5916.120
    
    [GRAPHIC] [TIFF OMITTED] T5916.121
    
    [GRAPHIC] [TIFF OMITTED] T5916.122
    
    [GRAPHIC] [TIFF OMITTED] T5916.123
    
    [GRAPHIC] [TIFF OMITTED] T5916.124
    
    [GRAPHIC] [TIFF OMITTED] T5916.125
    
    [GRAPHIC] [TIFF OMITTED] T5916.126
    
    [GRAPHIC] [TIFF OMITTED] T5916.127
    
                                    

</pre></body></html>
